<html>
<title> - THE HIDDEN GULAG: PUTTING HUMAN RIGHTS ON THE NORTH KOREA POLICY AGENDA</title>
<body><pre>[Senate Hearing 108-404]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-404

    THE HIDDEN GULAG: PUTTING HUMAN RIGHTS ON THE NORTH KOREA POLICY 
                                 AGENDA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



92-834              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman

LAMAR ALEXANDER, Tennessee           JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
                                     JON S. CORZINE, New Jersey

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Charny, Mr. Joel R., vice president for Policy, Refugees 
  International, Washington, DC..................................    46
    Prepared statement...........................................    49
Citizen's Coalition for Human Rights of Abductees and North 
  Korean Refugees, statements of October 30 and November 3, 2003, 
  submitted for the record.......................................    55
Hawk, Mr. David, human rights investigator, U.S. Commission for 
  Human Rights in North Korea, Washington, DC....................     3
    Prepared statement...........................................     6
Kumar. Mr. T., advocacy director for Asia and the Pacific, 
  Amnesty International, Washington, DC..........................    40
    Prepared statement...........................................    41
Mochizuki, Professor Mike, director of the Sigur Center for Asian 
  Studies, George Washington University, Washington, DC..........    20
    Prepared statement...........................................    22
    ``Toward a Grand Bargain With North Korea,'' article from The 
      Washington Quarterly, Autumn 2003, by Mike Mochizuki and 
      Michael O'Hanlon...........................................    23
Palmer, Ambassador Mark, president, Capital Development 
  Corporation, Washington, DC....................................    11
    Prepared statement...........................................    14
Rios, Ms. Sandy, chairman, North Korea Freedom Coalition and 
  president, Concerned Women for America, Washington, DC.........    33
    Prepared statement...........................................    37

                                 (iii)

  

 
                           THE HIDDEN GULAG:
         PUTTING HUMAN RIGHTS ON THE NORTH KOREA POLICY AGENDA

                              ----------                              


                       TUESDAY, NOVEMBER 4, 2003

                           U.S. Senate,    
                 Subcommittee on East Asian
                               and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee), presiding.
    Senator Brownback. Good afternoon. The hearing will come to 
order.
    Hopefully, this hearing will begin to expose the true 
nature of the North Korean regime and its reputation as one of 
the worst violators of human rights in the world today.
    We'll hear testimony from the author of the recently 
released report, ``The Hidden Gulags: Exposing North Korea's 
Prison Camps.'' This was sponsored by the U.S. Committee on 
Human Rights in North Korea. We'll also see recently smuggled 
video footage of a labor camp in North Korea for minor 
offenders. I want to note, too, this is for minor offenders, 
the footage that we will see. Other witnesses will speak about 
the need for putting human rights on the agenda in any future 
dealings with North Korea, and speak more generally about 
various policy options.
    Before we get to the witnesses, I'd like to make some brief 
comments. First, promoting democracy and freedom in North Korea 
and ending its nuclear threat do not need to involve military 
action by the United States. We should explore every possible 
avenue for a peaceful and democratic resolution of the 
stalemate on the Korean Peninsula.
    How we can peacefully achieve a democratic Korea is one of 
the issues we will explore at this hearing today. And let me be 
clear about one thing. A resolution will not be on terms 
dictated by Kim Jong Il's regime.
    We should recall the way Ronald Reagan dealt with the 
Soviet Union in the 1980s. He called it for what it was, a 
brutal regime that repeatedly violated the rights of its 
citizens. He continued to deal with the Soviets out of 
necessity, but he never forgot, for one moment, the horrors of 
that regime and the violations of human rights occurring within 
its borders. He never forgot about the people of that country 
yearning for freedom and for democracy, and neither should we.
    Ronald Reagan did this, however, not as some flag-waving 
rally for human rights and democracy, but because he knew that 
profound historic changes were going to happen, not only in the 
Soviet Union, but in other parts of Europe, as well. He saw the 
signs of systems failure, and he understood that when people 
are not free to make their own decisions, a ruler's hold on 
power is tenuous.
    In North Korea, we are seeing similar signs of systems 
failures. The regime is already collapsing. Free countries 
should not prop it up, but rather hasten its demise to the 
totalitarian junk-heap of history.
    Here are some of the signs of systems failures in North 
Korea. China has dispatched 150,000 troops to the border with 
North Korea, and they're expected to beef it up to upwards of 
half a million. This isn't simply a function of trying to 
cutoff refugees desperately trying to escape and survive the 
conditions in North Korea. Surely the local state security 
forces can deal with that. Thousands of North Korean refugees 
are in hiding in northeast China, looking for every venue of 
escape. We witnessed a similar exodus in Eastern Europe as 
those totalitarian states were collapsing.
    According to the report by the U.S. Committee on Human 
Rights in North Korea, hundreds of thousand have died of 
starvation and oppression, while others continue to languish in 
their gulags. We saw that in Eastern Europe and the Soviet 
Union before its collapse.
    As Dr. Eberstadt, of the American Enterprise Institute, 
testified before this committee and other Senate hearings, 
North Korea resorts to criminal activities to earn hard 
currency in order to keep its regime on life support. With 
sovereignty and diplomatic privileges as its cover, North Korea 
is essentially a state-run organized criminal enterprise that 
is engaged in drugs and arms trafficking, counterfeiting, and 
other activities across the globe. Given these signs, we must 
have the resolve to deal firmly with North Korea.
    In this context, I'm in the process of preparing 
comprehensive legislation designed to promote freedom and 
democracy for the millions who languish in North Korea, and to 
protect the hundreds of thousands of North Korea refugees that 
have already fled.
    Let me make clear what this bill is not about. It's not 
about continuing to subsidize the North Korean regime so that 
it can build and maintain more gulags. The American people will 
not stand for that.
    Having said that, if the administration is able to force 
North Korea to halt its nuclear program, that is certainly a 
positive step forward. But North Korea will not get one cent 
from the United States or other supporters of human rights, I 
hope, unless it also agrees to make significant improvements 
into its human-rights situation.
    There is no obligation for the United States and its allies 
to keep the regime on life support.
    The American people will not tolerate food aid being 
skimmed by the North Korean regime for its army and the elites. 
We must be able to verify and monitor the distribution of food 
in all parts of North Korea.
    I'm hopeful that with the support of key Members of the 
House and Senate, we will be able to introduce the bill before 
adjournment.
    We have a building across from the Capitol here in 
Washington, DC, called the Holocaust Museum. Thousands of 
survivors and their families are gathered this week to pay 
tribute to the proposition that the world will never forget 
what happened to the Jewish people during World War II.
    There is no question in my mind that had Congress held 
hearings and made the effort to speak the truth about the Nazi 
regime in 1943, many lives would have been saved.
    There is another message that the Holocaust Museum 
represents. It also stands for the proposition that we will not 
remain silent in the face of the kind of horrors that are 
occurring on a daily basis in North Korea. What you're about to 
see has been going on for 50 years since the end of the Korean 
conflict. It's about time such behavior comes to an end. Unless 
we are willing to speak out about the evils of the North Korean 
regime, we may, in the words of George Santayana, ``be 
condemned to repeat history.''
    Our first witness, Mr. David Hawk, is a human-rights 
investigator and advocate. His worked for the United Nations 
and other organizations include the Khmer Rouge genocide and 
the Rwanda massacres. Recently, he's consulted for the Landmine 
Survivors Network on humanitarian assistance projects in 
Cambodia and Vietnam.
    Mr. Hawk, I look forward to your testimony. And at the 
conclusion of your testimony, we'll have a short video 
presentation, which was previously shown by Tokyo Broadcasting 
Service, who owns its copyrights. And we will see that at the 
end of this testimony.
    Mr. Hawk, I'm delighted to have you here today and look 
forward to your testimony and your explaining the photographs 
that you have in front of us, as well.

   STATEMENT OF DAVID HAWK, HUMAN RIGHTS INVESTIGATOR, U.S. 
   COMMITTEE FOR HUMAN RIGHTS IN NORTH KOREA, WASHINGTON, DC

    Mr. Hawk. Senator Brownback, thank you very much for 
inviting me to testify today about the nature of the North 
Korean prison camp system.
    As you know, North Korean officials continue to adamantly, 
strenuously deny that they have any political prisoners or any 
political prison camps. I hope that the report released last 
week by the U.S. Committee for Human Rights in North Korea will 
provide the vocabulary, the analysis, and a modicum of evidence 
that will enable U.N. officials, diplomats, visiting 
congressional delegations, journalists, and others with the 
material and information they need to challenge such denials.
    Virtually all of the scores of thousands of Koreans 
imprisoned in the kwan-li-so political penal forced-labor camps 
are victims of what the U.N. defines as arbitrary detention. 
None of those so imprisoned have undergone any judicial process 
or trial. Most of those imprisoned serve lifetime sentences 
performing slave labor--usually mining or lumber-jacking, 
timber-cutting, or agricultural production--under terrible 
conditions. Most of those imprisoned are there by virtue of a 
system of guilt by association in which not only the perceived 
political wrongdoer, but members of his or her family, up to 
three generations, are imprisoned for life at hard labor.
    Virtually all of the kwan-li-so inmates--and the former 
guards believe that the number 200,000 is the minimal figure of 
the population of the kwan-li-so camps--are political 
prisoners. Six such political penal labor camps are believed to 
be operating currently. Eyewitnesses's accounts of four of 
these prison camps appear in the report, along with satellite 
photos of these four political prison camps.
    The other component of the North Korean gulag is the kyo-
hwa-so prison camps, which, like the kwan-li-so, are 
characterized by very high rates of deaths in detention from 
combination of below-subsistence-level food rations combined 
with hard labor under terrible conditions. But the kyo-hwa-so 
inmates have been through a judicial process and are given 
fixed-term sentences. And the inmate population of the kyo-hwa-
so forced labor prisons and camps is mixed. Some have been 
convicted of criminal offenses, others are political prisoners. 
Such kyo-hwa-so inmates were imprisoned for what would not be 
criminal acts in a non-totalitarian society. Examples included 
in the report are those North Koreans in prison and condemned 
to hard, dangerous labor for singing, or being overheard 
singing, South Korean pop songs, for listening to South Korean 
radio, or having met South Koreans while they were in China. 
This report provides descriptions of seven kyo-hwa-so prison 
camps and a satellite photograph of Kaechon kyo-hwa-so in South 
Pyong-an Province.
    You may have heard, previously, testimony from Soon Ok Lee. 
She was in Kaechon, and a satellite photograph of the prison 
camp where she was imprisoned appears in the report.
    Similarly, the shorter-term jib-kyul-so provincial 
detention center inmate populations are also mixed. Some 
detainees are imprisoned for what are essentially misdemeanor-
level offenses, but many others are imprisoned solely for 
having left North Korea to obtain food or money for food in 
China or having left their village without authorization to 
seek food in a neighboring area. These provincial detention 
facilities and the related ro-dong-dan- ryeon-dae labor 
training centers constitute a separate system of punishment and 
forced labor for North Koreans who have been forcibly 
repatriated from China.
    Each of these different prison slave-labor camps are 
characterized by extreme phenomena of repression. Lifetime 
imprisonment and guilt by association up to three generations 
in the kwan-li-so, forced abortion and ethnic infanticide in 
the provincial detention centers along the North Korea/China 
border. The practice of torture and extremely high rates of 
deaths in detention from forced labor and below-subsistence-
level food rations permeate the system in these camps at all 
levels.
    The base of information, the data base, on which this 
report was prepared is outlined in the introduction to the 
report. For some of the prison camps, we have multiple sources, 
such as the kwan-li-so at Yodok, where there were four former 
prisoners provide testimony that ranged in years from 1975 up 
until the late 1990s.
    For other of these prison camps, there are limited, even 
single, sources. For example, Mr. Kim Yong is the only known 
prisoner from camp number 14 and camp number 18 to have escaped 
and subsequently obtained asylum in South Korea.
    On the other hand, if North Korean authorities want to 
disprove the claims made by the former prisoners, it would not 
be difficult to invite appropriate representatives of the 
United Nations, the ICRC, or responsible NGOs, such as Amnesty 
International or Human Rights Watch, to visit the sites which 
are identified and precisely located in the report.
    Until such time as onsite verifications are allowed, the 
refugee testimonies, as are presented in the report, retain 
their credence and authority.
    Since the authorities in North Korea do not allow onsite 
verification, the U.S. Committee, with the help of the National 
Resource Defense Council, was able to obtain satellite 
photographs of seven different prison camps, prisons, and 
detention centers, whose landmarks have been identified by the 
former prisoners from these facilities.
    Finally, Senator, I'd like to call your attention to some 
of the recommendations in the report. First, I hope that 
Congress will encourage the Bush administration to increase 
their satellite coverage of the North Korean prison camps. 
These satellite photographs on display at this hearing are 
taken from the archives of commercial satellite photo 
companies. But these commercial satellite photo companies do 
not have satellites revolving over North Korea anywhere near 
the frequency or power and scope that the U.S. Government does, 
and it would be extremely helpful if there would be updated 
information presented to Members of Congress and others with 
the appropriate security clearances as to development and 
activities in these camps. We are able to provide coordinates 
of longitude and latitude up to a hundredth of a degree.
    Second, with respect to the situation of North Koreans in 
China, I hope that the United States will speak to the Chinese 
about allowing the UNHCR access to North Koreans in China or, 
pending that step, simply to stop the repatriation of North 
Koreans until it can be verified that the extreme punishment of 
repatriated North Koreans has ceased.
    I would also hope that the United States, preferably in 
cooperation with South Korea and Japan, can approach the 
Chinese about a program of orderly departure, first asylum and 
third-country resettlement, if that's the only way to empty out 
the kwan-li-so penal labor colonies.
    Third, as a substantial contributor to the World Food 
Program in Korea, I would hope that the United States could 
urge the World Food Program to offer food support to the kyo-
hwa-so, jib-kyul-so, and ro-dong-dan-ryeon-dae prisons and 
prisoners, in order to reduce the high number of deaths and 
detention from malnutrition, starvation, and related diseases.
    And, last, regarding the present six-party talks with North 
Korea, I have no idea if these negotiations can or will 
succeed, and perhaps they will be limited to security tradeoffs 
and arrangements. However, if a more comprehensive solution is 
envisioned or demanded--that is, one that includes foreign aid 
to, foreign investment in, and normalized economic relations 
with North Korea, by which they mean opening up the borders of 
Europe and North America to goods and materials from North 
Korea--in that situation, I would hope that the humanitarian 
and human-rights conditions, some of which are detailed in this 
report, would also be put on the agenda for consideration at 
the negotiation.
    Thank you, Senator.
    [The prepared statement of Mr. Hawk follows:]

   Prepared Statement of David Hawk, Human Rights Investigator, U.S. 
       Committee for Human Rights in North Korea, Washington, DC

    THE HIDDEN GULAG: EXPOSING NORTH KOREA'S PRISON CAMPS--PRISONER 
                 TESTIMONIES AND SATELLITE PHOTOGRAPHS

    Senators, thank you very much for inviting me to testify today on 
the North Korean prison camps system. As you know, North Korean 
officials continue to adamantly, strenuously deny that they have 
political prisoners or political prison camps. I hope that my 
report,\1\ released last week by the U.S. Committee for Human Rights in 
North Korea will provide the vocabulary, the analysis, and the modicum 
of evidence that will enable UN officials, diplomats, parliamentarian 
delegations, journalists and others to challenge such denials.
---------------------------------------------------------------------------
    \1\ The entire report may be accessed at www.hrng.org
---------------------------------------------------------------------------
    Virtually all of the scores of thousands of Koreans imprisoned in 
the kwan-li-so political penal forced labor camps are victims of what 
the UN defines as ``arbitrary detention.'' None of those so imprisoned 
have undergone any judicial process. Most of those imprisoned serve 
life-time sentences performing slave labor--usually mining, 
lumberjacking and timber cutting or agricultural production--under 
terrible conditions. Most of those imprisoned are there by virtue of a 
system of guilt by association, in which not only the perceived 
political wrong-doer, but members of his or her family up to three 
generations are imprisoned at hard labor. Virtually all of the kwan-li-
so inmates are political prisoners. Six such political penal labor 
camps are believed to be operating currently. Eyewitness accounts of 
four of these prison camps appear in the report, along with satellite 
photos of these four political prison camps.
    The other component of the North Korean gulag is kyo-hwa-so prison 
camps, which like the kwan-li-so are characterized by very high rates 
of deaths-in-detention from combinations of below-subsistence food 
rations coupled with hard labor under brutal conditions. But the kyo-
hwa-so inmates have been through a judicial process and are given fixed 
term sentences. And, the inmate population of the kyo-hwa-so forced 
labor prisons and prison camps is mixed: some have been convicted of 
criminal offenses: others are political prisoners. Such kyo-hwa-so 
inmates were imprisoned for what would not be criminal acts in non-
totalitarian societies. Examples included in this report are those 
North Koreans imprisoned and condemned to hard, dangerous labor under 
extremely harsh conditions for singing South Korean songs, listening to 
South Korean radio, or having met South Koreans in China. The report 
provides descriptions of seven kyo-hwa-so and a satellite photograph of 
Kaechon, South Pyong-an Province.
    Similarly, the shorter-term jib-kyul-so provincial detention center 
inmate populations are also mixed. Some detainees are imprisoned for 
essentially misdemeanor level offenses. But many others are imprisoned 
solely for having left North Korea to obtain food or money for food in 
China. Or having left their village without authorization to seek food 
in a neighboring area. These provincial detention facilities and the 
related ro-dong-dan-ryeon-dae labor training camps constitute a 
separate system of punishment and forced labor for North Koreans 
forcibly repatriated from China.
    Each of these different prison-slave labor camps, prisons and 
detention facilities are characterized by extreme phenomena of 
repression: life-time imprisonment and guilt by association, up to 
three generations in the kwan-li-so; forced abortion and ethnic 
infanticide in the provincial detention centers along the North Korea-
Chinese border; the practice of torture and extremely high rates of 
deaths-in-detention from combinations of forced labor and below 
subsistence food rations permeate the prison and camps system at all 
levels.
    The base of information on which this report was prepared is 
outlined in the introduction. Still, for some of these prison camps we 
have limited sources, even single sources. For example, Mr. Kim Yong is 
the only known escapee from Camps 14 and 18 in province known to have 
obtained asylum. On the other hand, if North Korean authorities want to 
disprove the claims made by former prisoners, it would not be difficult 
to invite appropriate representatives of the UN, the ICRC, or 
responsible NGOs such as Amnesty International or Human Rights Watch to 
visit the sites identified and located in this report. Until such time 
as on-site verifications are allowed, the refugee testimonies, such as 
presented in this report retain their credence and authority. Since the 
North Korean authorities do not allow on-site verification, the U.S. 
Committee, with the help of the National Resource Defense Council, was 
able to obtain satellite photographs of seven different prison camps, 
prisons and detention centers, whose landmarks have been identified by 
the former prisoners from these facilities.
    Finally, may I call your attention to some of the recommendations 
of the report.
    First, I hope Congress will be able to encourage the Bush 
Administration to increase their satellite coverage of the NK prison 
camps.
    Second, with respect to the situation of North Koreans in China, I 
hope that the U.S. will speak to the Chinese about allowing the UNHCR 
access to North Koreans in China, or pending that step, to simply stop 
the repatriation of North Koreans until it can be verified that the 
extreme punishments of repatriated North Koreans has ceased. I would 
also hope that the United States, preferably in cooperation with South 
Korea and Japan can approach the Chinese about a program of orderly 
departure, first asylum and third country re-settlement if that is the 
only way to empty out the North Korean kwan-li-so.
    Third, as a substantial contributor to the World Food Program in 
Korea, I would hope that the United States could urge the WFP to offer 
food support to the kyo-hwa-so, jib-kyul-so and ro-dong-dan-ryeon-dae 
prisons and prisoners in order to reduce the number of deaths in 
detention from malnutrition and related diseases.
    Fourth, regarding the present six-party talks with North Korea, I 
have no idea if these negotiations can or will succeed. Or, perhaps 
they will be limited to security trade-offs and arrangements. However, 
if a more comprehensive solution is envisioned or demanded--that is one 
that includes foreign aid to, foreign investment in, and ``normalized'' 
economic relations (opening up the borders of Europe and North America 
for North Korean-produced goods and materials), then I would hope that 
humanitarian and human rights consideration would also be put on the 
agenda for consideration.

    Senator Brownback. Thank you, Mr. Hawk.
    I have looked over your report,\2\ a summary of it, and 
it's, you know, quite clear and explicit, and quite condemning, 
what's taking place in North Korea.
---------------------------------------------------------------------------
    \2\ The report, including the satellite photos discussed during Mr. 
Hawk's testimony, can be found on the U.S. Committee for Human Rights 
in North Korea's Web site at: www.hrnk.org
---------------------------------------------------------------------------
    I wonder, would you give me a couple of minutes and come 
around and point to these various pictures, and hold them up 
and say, ``Here is what's in this one''? I didn't ask you to do 
that ahead of time, but you've got a number of these satellite 
pictures, and these are all from commercial entities, as I 
understand, from what you said. And just go around and spend a 
moment, if you could, on each of them, identifying them.
    Mr. Hawk. This is a commercial satellite photograph of the 
entire Korean Peninsula with the selected prison-camp locations 
of the former prisoners who were interviewed in the report. 
There are many additional prison camps. These are only the 
prison camps for which we had former prisoners or guards who I 
was able to interview who could identify the locations of the 
camps and their locations are put in this satellite photo by 
the coordinates of longitude and latitude, so they're quite 
accurate placements.
    This is a partial interview of the kwan-li-so political 
penal labor colony called Yodok, and, as you can see, this is 
primarily, an agricultural prison labor farm in which various 
crops are grown in the valleys in between the mountain areas.
    This is where a fellow by the name of Kang Chul-Hwan was 
imprisoned from the age of 9 to 19 because of the perceived 
political mistake his grandfather made.
    But you get a sense of the sprawling nature of these prison 
camps. They're 40 miles long by 20 miles wide, so they're huge 
areas that are cordoned off and guarded, and you have some 
sections that are for political prisoners, and then you have 
other sections isolated from the political prisoners for the 
families of the political prisoners.
    In the report, for each of these red boxes there is a 
detail of the photograph with the identifications of various 
places. The prisoners were able to find where they were living, 
their dormitories, their prison housing units. They were able 
to find their work sites, and they were able to find the 
offices of the prison camp and execution and punishment sites 
in the photographs.
    This is a partial overview of both camp number 14, which is 
on this side of the Taedong River, and camp number 18, which is 
on this side of the Taedong River. Camp 14 is for perceived 
political wrongdoers, political prisoners; 18 is for the 
families of the people over here. This is a coal mine. Camps 14 
and 18 are described in the report. This is where Kim Yong, 
who's currently actually studying theology in Los Angeles, 
escaped from. He was able, in a closeup, to identify the coal 
mine where he worked, over here, and he was transferred over 
here, and he worked on a coal trolley. In the detailed shots 
you can see the tracks for the coal that was produced here--was 
shipped to a local power plant about 20 kilometers away. He 
escaped by hiding in a coal trolley. His job had been to repair 
the coal trolleys. He jumped into one, and that is how he 
escaped the camp.
    And then you have various details of the camp with the 
various sections of the prisoners. This is the entrance to the 
coal mine, where Kim Yong did prison labor for 3 years as a 
coal miner.
    This one has--in another section of the camp, this has his 
house. He was able to identify the prison dorm where he was 
held.
    In the one over here, which is another detail of camp 14--
has in it down here the prison execution site, where they have 
public executions and hangings for people who violated the 
prison camp rules, or else were caught trying to escape. And, 
reasonably enough, the execution site is right near the firing 
range where the guards practice their rifle shooting.
    And then this photograph which I referred to earlier is the 
kyo-hwa-so, where Soon Ok Lee was imprisoned along with and 
another woman Ms. Ji, was interviewed for the report, who was 
arrested because she was overheard singing a South Korean pop 
song. This is one of the camps.
    It's really like a large penitentiary, and the core of 
which is a textile factory and a shoe factory where the women--
this is a place for women prisoners, mixed criminals and 
politicals, produce shoes and also textiles for export. When 
Soon Ok Lee was there, they were exporting to Japan, to France, 
and to Russia the various textile products made by prison slave 
labor at the Kaechon kyo-hwa-so. But if you look closely, you 
can see the wall that surrounds the perimeter, just as she 
describes in her book, and you can see the guard towers along 
the walls, and various places for supplies and for the 
factories for shoes and for the guards.
    And there are also provincial and sub-provincial detention 
centers where the repatriated North Koreans are sent. Several 
of the former inmates drew little sketches that identified the 
places in the adjacent or interior clinics where the forced 
abortions took place or where the birthing rooms where, where 
babies were suffocated. And several months after we had those 
sketches, we were able to get the satellite photographs of the 
town, and the women and the men from these jib-kyul-so were 
able to find, in a large satellite photograph of the town, 
after several magnifications they could find the buildings and 
the small detention facilities. You can see that they 
correspond to the sketches, so you can see the birthing rooms, 
and you can also see the storage rooms where, according to the 
testimony of the foreign prisoners, the suffocated fetuses were 
kept prior to burial.
    Senator Brownback. Thank you very much. Thank you,
    Mr. Hawk. That's very graphic and specific.
    We will now have the video presentation, and I believe, 
rather than Mr. Hawk, Pastor Shin was going to narrate us 
through this video presentation.
    Pastor Shin, if you could come forward--he has worked a 
great deal on human rights in this. And I would note to people 
that this is previously shown by Tokyo Broadcasting Service. 
They own the copyrights to this. This is, I am told, of a 
misdemeanor camp, so this would be the most minor-of-offenses 
type of prison camp.
    And let's go ahead and start with that. And, Mr. Douglas 
Shin, as you see fit to jump in here and to explain, please do 
so.
    Mr. Shin. Before we start the video, I'd like to make some 
comments. As Mr. Hawk has explained, there are three tiers in 
the North Korean penal system. The lowest level is the kyo-hwa-
so or labor training camps, the image of which we are about to 
see. Kyo-hwa so is, by the way, the Russian word for labor 
training camp. Kyo-hwa-so is only for the smallest of crimes, 
usually misdemeanors. Sentencing is usually up to 1 year. There 
are over 200 of these kyo-hwa-sos, one in each county of North 
Korea. At great risk to himself, the videographer who has taken 
these images has provided the first-ever video of a labor 
training camp of North Korea.
    These images were first aired in Tokyo on TBS and, as I 
understand it, was also shown by Reuters. My understanding is 
that these videos were not shown in South Korea, although there 
were press reports about them. This would be the first time 
that these videos are being shown in the United States.
    As I understand it from my sources, all the video clips are 
from a labor training camp in ro-dong-dan-ryeon-dae, which is 
the official term for labor training camp. This is the 
northernmost province of North Korea, right on the Chinese 
border.
    So we'd like to start with the first clip. The people you 
see sitting on the left are very likely former refugees who 
have been forcefully returned from China. Ordinary refugees who 
have left China and are rounded up and sent back to North Korea 
are sentenced to the equivalent of a misdemeanor, and they're 
sent to a kyo-hwa-so, like this.
    If a former refugee is determined to have dealt with 
missionaries in China or even tried to flee to South Korea or 
elsewhere, the sentence is 7 years to life in either a 
penitentiary that is kyo-hwa-so or a political prisoners camp 
that is kwan-li-so.
    And second clip, please.
    They're saying, ``giddy-up, giddy-up'' in Korean. This is a 
video of workers moving a train car, presumably after having 
loaded it. Inmates are forced to move the train car, as there 
is no fuel to start the engine and work it. Please notice that 
there are women pushing the car, as well.
    And the third one, please.
    OK, here you see workers removing wood and building a new 
roof within the camp grounds. See the truss structure that is 
not quite completed yet. There's a soldier right in the middle 
ground. OK, please note women and children are also working in 
this camp.
    And the fourth one.
    This is simply a video of detainees lined up, probably for 
a meal, because they don't have tools at hand.
    The narration goes ``kyo-hwa-so inmates,'' kind of 
whispering to the camera.
    And the final and fifth one, please.
    Here you see inmates lined up to march. Yes, here you see 
inmates lined up to march, with tools in hand. They are most 
likely finishing a job and heading back to the dormitory. The 
first part of the conversation goes, ``They've got to be 
inmates.'' And the other interlocutor, probably standing next 
to the videographer, goes, ``Yeah, they have to be. They ought 
to be on their way to the dormitory at the end of the day.''
    OK, thank you very much.
    Senator Brownback. Thank you very much, Mr. Douglas Shin, 
for sharing those with us in the first-ever, as I understand 
it, showing of those in the United States, these clips of a 
misdemeanor labor camp.
    I ask now that Ambassador Palmer and Professor Mochizuki 
join Mr. Hawk at the table. In the interest of time, I'd like 
to ask everyone, if they could, to summarize their comments.
    Ambassador Palmer has served in policy positions at the 
State Department in the Nixon, Ford, Carter, Reagan, and first 
Bush administrations, including launching the National 
Endowment for Democracy. He organized and participated in the 
first Reagan/Gorbachev summit as the State Department's top 
criminologist. And as the U.S. Ambassador to Hungary, he helped 
persuade its last dictator to leave power. Ambassador Palmer is 
the author of a fabulous new book that I'll put a plug in for 
here, ``Breaking the Real Axis of Evil.''
    Ambassador Palmer, delighted to have you here.
    Mike Mochizuki is professor of Political Science and 
International Affairs at George Washington University--I hope I 
got somewhere close to the correct pronunciation.
    Together with his colleague at the Brookings Institute, 
Michael O'Hanlon, Professor Mochizuki is the coauthor of ``The 
Crisis on the Korean Peninsula: How to Deal with a Nuclear 
North Korea.''
    Mr. O'Hanlon was to testify today, but he had a scheduling 
conflict and could not join us.
    Ambassador Palmer, you're certainly no stranger to these 
neighborhoods. I look forward to your testimony and the floor 
is yours.

 STATEMENT OF HON. MARK PALMER, PRESIDENT, CAPITAL DEVELOPMENT 
                  CORPORATION, WASHINGTON, DC

    Ambassador Palmer. Yes, good. Thank you, Mr. Chairman. It's 
a pleasure to be with you today.
    I think it's very important that we be clear, right off, 
about what the goal is. The goal is to help the North Korean 
people liberate themselves from this gulag, both the gulag that 
we've seen and the larger gulag which is North Korea, to 
achieve democracy, and to unite peacefully with their fellow 
Koreans in the South. In my judgment, this will require the 
ouster of the dictator, Kim Jong Il, and we need a 
comprehensive strategy to achieve that goal.
    In 1972, Brezhnev demanded the same thing that Kim Jong Il 
has just demanded--that is, a nonaggression pact and trade and 
economic assistance--and President Nixon responded in that year 
by saying, ``Fine, I'll negotiate about those two things, but 
you have to add a third basket--human rights, freedom of 
contact, freedom of travel. You have to have a human-rights 
basket.'' And, of course, as we all know, that was the Helsinki 
process, and it ended up in encouraging a tremendous expansion 
of freedom in Eastern Europe and ultimately in bringing down 
the Communist regimes. I think it would be reasonable for all 
of us to ask President Bush to repeat that lesson. That is to 
say that we are willing to talk with Kim Jong Il about his 
desiderata, but we're going to demand that he add the third 
basket, and we repeat the Helsinki process.
    This is important, because the only reason that a dictator 
can remain in power is if people, the people of his nation, 
cooperate--passively, out of fear, or for whatever other 
reason, they cooperate. And the whole game, in my judgment--
having lived in and studied a lot of these regimes, the whole 
game is to get the people to non-cooperate, to get to the point 
where they say, enough is enough. And we, in the free world, 
have an obligation to help them get to that point.
    Now, how to do that? First, I think it's terribly important 
to recognize that we must communicate with the people of North 
Korea, we must open up the country, we must let them know that 
they're not alone, and we must help them believe that they can, 
in fact, join South Korea and become a normal country. An 
invaluable avenue for that, of course, is media penetration. 
It's really a disgrace that Dr. Norbert Vollertsen does not get 
more support in getting radios into North Korea. Having radios 
capable of receiving Radio Free Asia and South Korean stations 
is really of tremendous importance. All of us who lived in 
Eastern Europe during the period when Communists were brought 
down know that radio broadcasting, and now television and the 
Internet, are really central to the process. Members of the 
elite in North Korea have greater access to information, and we 
need to work on them, as well, through these same channels.
    There is also, of course, a Korean diaspora, including a 
sizable Korean community in Japan, and I think that we need to 
work hard on turning some of those people, on gaining agents of 
influence from within that community, many of whom, of course, 
are sympathetic, or have been historically sympathetic, to the 
North Korean Communist regime. I think there is an opportunity 
there to penetrate the North through that community.
    Exchanges have worked very well in opening up and 
ultimately bringing down Communist regimes, and I am a strong 
proponent of more exchanges with North Korea, even if in the 
beginning they're timid and not exactly what we want.
    I, for example, started the first business school, the 
first MBA program in a Communist country, and I think that 
things like that, even through they're not explicitly 
political, can make a difference, and we may have to start at 
that end of the spectrum.
    I don't think we're going to get a lot of cooperation out 
of China. My own sense is that because they are a dictator, 
that mostly they're supporting Kim Jong Il. And although I 
agree we should put pressure on them to cooperate on the 
refugees, my own sense of the bottom line is that they're 
really on the wrong side and are likely to continue to be on 
the wrong side.
    Russia's another situation. It's, sort of, a half democracy 
or half dictatorship. I think with Putin there is a chance, and 
we should work hard on him, to let refugees come out into 
Russia and to create the kind of flows that we saw, and I 
personally saw, coming through Hungary in 1989, which really is 
what led to the collapse of East Germany.
    It's very, very important that we begin to talk about 
reunification in very concrete ways. I was particularly pleased 
to see that in the paper he submitted, Mr. Hwong, the most 
senior defector from North Korea, talked about four stages. I 
think it's really important, in shifting a lead opinion in 
South Korean to the point where they're willing to really 
encourage change in North Korea, encourage the fall of the 
Communists. It's important to reassure them that this can be 
done in a stable way, in a way that's not going to overwhelm 
the South Korean economy.
    So I think it's very important to begin now to do detailed 
planning and, most importantly, to publicize that detailed 
planning on radio and television and the Internet to the North. 
It can be done in a stable way. I participated personally in 
doing it in Eastern Germany, where I was a large-scale 
investor, and I think there are some lessons to learn from that 
experience in Eastern Germany, some things not to do, as well 
as things to do.
    But I think the most important thing is to begin the 
process, and do it very publicly, so that all governments--
Japan, Korea, ourselves--really will get enthusiastic about 
bringing down the regime and not be hesitant the way we are 
today.
    At the end of the day, the only thing that really works 
well is people-power, in my judgment. If we look at all of the 
change that has taken place, not only in Communist regimes, but 
in the Philippines, in Indonesia and Argentina and Chile, and, 
in fact, in South Korea, itself, in ousting dictators, what 
really works is getting a nonviolent people's movement going, 
first in the underground, first through covert literature, 
covert printing presses, and ultimately above-ground, taking 
control of the whole state through strikes, general strikes, 
boycotts, and the 198 different techniques, which are outlined 
in Gene Sharp's very good book, ``From Dictatorship to 
Democracy.'' There are 198 different techniques that have been 
used for achieving justice through nonviolent means, and we, on 
the whole, I think, don't understand this world. We are 
accustomed to thinking that either we do it through broad-scale 
sanctions, economic sanctions, or we do it through military 
means, or we do it through hope. All those things, in my 
judgment, are much less important than learning the lessons of 
Solidarity. How did Solidarity get organized in the 
underground? How did they actually do it? How did it happen in 
these other countries? We can learn those lessons. My book--
thank you for mentioning--goes on at great length about how to 
do this. That is, how to help the North Koreans get organized 
over the coming months and years, and eventually push this 
terrible tyrant out of office.
    In my prepared testimony, Mr. Chairman, I go on about this 
at some length. I won't take the time to do it now.
    But let me just say that I think the main thing is a hangup 
for most people is that they look at the regime in Pyongyang, 
and they say, this is a brutal regime, and it's not going to 
tolerate nonviolent resistance. It's just going to kill 
everybody or put them in these camps. That's a reasonable 
question, but the answer is that people in very, very brutal 
situations have succeeded with nonviolent revolt, have 
succeeded in paralyzing countries and bringing down dictators 
again and again and again. Even in the heart of Berlin in the 
middle of the Second World War, a group of women went out and 
struck and did a sit-in and got their Jewish husbands released 
from Auschwitz. And Hitler was certainly not faint of heart. He 
was not a man unwilling to use force against peaceful 
demonstrators. But it worked in Berlin in 1943. In my judgment, 
it can work in Pyongyang today. But we need to get organized 
and to support it.
    It is really striking to me that, if you look at my former 
employer, the State Department, or any other part of the U.S. 
Government, including the CIA, there is no one, no part of the 
bureaucracy that's committed to organizing nonviolent 
resistance movements. No one. There's no one with any 
expertise, there's no one who gets up in the morning and says, 
OK, I'm going to work with the 43 different countries that are 
under dictators, I'm going to work with the people of that 
country to organize these kind of movements, and we're going to 
do this peacefully, but we're going to do it. We're not set up 
for that, and that's really a disgrace. It's the biggest single 
weakness in our national-security apparatus, in my judgment.
    I think outsiders can do a huge amount to de-legitimize Kim 
Jong Il. And, as I said before, that is the name of the game. 
We need to show that ``the emperor has no clothes.''
    One of the ways to do that would be to do what is now 
increasingly being done under international practice, and that 
is to indict him, to set up an international tribunal to go 
through all of the elements of criminality, which, as you said 
earlier, Mr. Chairman, he is guilty of. You mentioned drugs, 
you mentioned supply of weapons to other rogue regimes. In 
addition to that, I would add the fact that his behavior led 
directly to the starvation death of two million people. Clearly 
that is a crime against humanity. He is implicated in the 
assassination of South Korean cabinet ministers in Burma. That 
is murder. He is implicated in the downing of a civilian Korean 
airliner in the 1980s. That is terrorism. I mean, you can go 
down a long list of things that would form the basis for an 
indictment. And I think David Hawk's magnificent and detailed 
report is precisely one of the things that could be used in an 
indictment.
    By indicting him, we show that this man, who likes to think 
of himself as a form of God, that this man is nothing better 
than a common criminal. I think we need to get on with doing 
that.
    And this is my final suggestion, Mr. Chairman. Another 
thing that could, in my judgment, really work well is to 
remember what Prime Minister Churchill and President Roosevelt 
did with their fireside chats during World War II.
    By speaking to the free world emotionally and strongly, 
they rallied the free world to defeat the fascists and to win 
the war.
    I think that every democratic leader in the world should, 
on a weekly or monthly basis, broadcast into North Korea--of 
course, in the Korean language--a message of hope and 
encouragement, with some lessons of how this has been done in 
other places, and confidence that they are going to get 
freedom.
    In 1981--you mentioned President Reagan, and, as I think 
you know, I worked with President Reagan during that period--we 
got over 20 Prime Ministers and Presidents of democratic 
countries to tape televised messages to broadcast into Poland, 
into Solidarity, of exactly this nature. So there is precedent 
for this, and I think it would have a huge effect in North 
Korea if they heard the Prime Ministers of Japan and England 
and Italy and many other countries, including, of course, the 
President of the United States, speaking to the people of North 
Korea and saying, we are on your side. You are going to achieve 
your freedom, and here's how to do it.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Palmer follows:]

   Prepared Statement of Ambassador Mark Palmer, President, Capital 
                Development Corporation, Washington, DC

    Let us be clear about our goal. We want to help the North Korean 
people liberate themselves from the gulag, achieve democracy and unite 
peacefully with their fellow Koreans in the South. This will require 
the ouster of the dictator, Kim Jong Il. We need a comprehensive 
strategy to achieve that goal.
    In December 2002 Kim Jong Il created a new crisis by admitting that 
he had been conducting a secret program to develop nuclear weapons, in 
violation of the 1994 agreement with the United States. He threatened 
war if the United States did not agree to negotiate a nonaggression 
pact and restart economic assistance in return for his, again, 
promising not to develop nuclear weapons. This presents an 
extraordinary opportunity for the United States and South Korea to move 
``From Helsinki to Pyongyang''--the title of a statement of principles 
that Michael Horowitz of the Hudson Institute and I conceived and 
drafted and for which we secured leading Americans as cosigners. The 
Wall Street Journal published the statement on 17 January, 2003. We 
argue that just as President Richard Nixon in 1972 agreed to 
negotiations on Leonid Brezhnev's demands for a nonaggression pact and 
improved economic cooperation but insisted on broadening the agenda to 
include human rights, so President Bush should propose to open 
negotiations on such a Helsinki-like three-basket agenda with North 
Korea. The animating insight of Helsinki was that, by publicly raising 
human rights issues to high-priority levels, the United States would 
set in motion forces that would undermine the legitimacy of the Soviet 
communist empire, and so it turned out to be. By formally acknowledging 
in Helsinki the legitimacy of such rights as the free exchange of 
people, open borders, and family reunification, the communists opened 
the floodgates of dissent and brought about their eventual ouster.
    Would Kim Jong Il agree to enter into such a negotiation and 
agreement? In 2002 and 2003 he is showing signs of desperation, and 
searching for new solutions to mounting problems. In 2002, he 
introduced a modest reform in the setting of wages and prices, quite 
likely in part the result of his study trips to China and Russia. In 
his belligerent way, he is literally begging for relations with, and 
help from the United States. While he is no Gorbachev 1984-1985, there 
are some similarities--which we should exploit.
    Of the 43 remaining Not Free countries, North Korea is the only one 
that has yet even to take a cautious step into stage one of the three 
stages of democracy development set forth in my book ``Breaking the 
Real Axis of Evil: How to Oust the World's Last Dictators by 2025.'' It 
has no proto-civil society, no legalistic culture to influence, no free 
media. It is far more isolated than the pre-Helsinki Soviet Bloc. 
Material privation surpasses that in the 1960s and 1970s Soviet Bloc, 
which failed its citizens miserably, but made at least some pretense of 
having a consumer base.
    In fact, thanks to the resilience of the human spirit and 
imagination, countries are rarely as locked down as they seem from 
without. The people of North Korea can be persuaded that there is light 
at the end of the tunnel, and that they can rejoin with their relations 
in the South in a united, democratic, and open Korea. The democracies, 
especially those with a strong presence in the region like the United 
States and Japan, in partnership with the Republic of Korea, a charter 
member of the Community of Democracies, need to make communicating with 
the people of North Korea their first priority. Once the brutalized 
people of North Korea begin to believe that they can work to change 
their destiny, and that they will have all the help the democracies can 
possibly provide, the rotten edifice will begin to crumble. But there 
is no time to lose.
    An invaluable avenue is media penetration, which is not impossible 
in North Korea. People have radios even in the countryside. But we need 
to ensure that they have radios that can receive foreign broadcasts. 
Dr. Norbert Vollertsen's efforts, along with those of his South Korean 
colleagues, to send in such radios are a vital part of the larger 
strategy. Radio Free Asia has a Korean-language service, and South 
Korean stations can be received. Building up the Radio Free Asia Korean 
Service from its current four hours a day to a full-time service would 
take a modest spike in funding, and considering the potential 
dividends, the resources need to be found. A concerted effort to get 
through to the North Korean public in this manner is essential, even 
with the attendant jamming and monitoring.
    Members of the elite in North Korea have greater access to 
information from outside, through satellite television, the Internet, 
and other media. They must get a consistent message that there is a 
future for those who are willing to switch their allegiance to the side 
of the people--and that the regime is doomed in any case owing to its 
own failings. They must also understand that should the leadership lash 
out in its self-imposed death throes, the response will be withering 
and total. The military, security, and foreign affairs elites' access 
to international media is essential to the regime. By using these 
conduits, the democracies can work to reduce the chance for a 
conflagration when the regime crumbles. High-level officials have 
defected before, some in recent years. There is no doubt they are 
taking the risk of defection for a reason. Certainly they know how low 
North Korea's dictators have laid the country, and how backward it is 
today. Now they must be shown a way out. The intelligence services of 
the democracies need to recruit agents of influence in this rarefied 
stratum. If the North Korean army and security forces can be persuaded 
not to turn on dissidents at home or against ``enemies'' abroad, and if 
the North Korean people can be empowered to take the necessary risks, 
the shift to democracy could follow very quickly.
    The democratic world must work within Japan's sizable Korean 
community to find ways to get inside and funnel information out. While 
this community contains a great many North Korean agents and still more 
sympathizers, even this can be turned into an asset. Interrogating and 
turning North Korean agents, with all the attendant risks, will at the 
very least give a clearer picture of North Korea's support network. If 
these resources are squeezed or redirected toward the struggle for 
democracy, the regime will feel real pressure.
    Such exchanges with the outside world as still exist must be 
exploited. Russia, at least nominally a democracy, continues to court 
cold-war-era allies. But North Korea cannot be seen as an ally that 
produces any financial or strategic gain for Moscow. Following the 
terrorist attacks on the United States, Russia's President, Vladimir 
Putin, has tried to draw closer to the United States. An opportunity to 
change tack is now at hand. President Bush should communicate to Putin 
that he sees a peaceful transition to democracy in North Korea as being 
in the interests of both the United States and Russia, and that Moscow 
has an important role to play in assuring a ``soft landing.'' Broadcast 
facilities in the Russian far east could help increase the radio 
footprint--and the frequencies used--for reaching the North Korean 
general population. Russia's border with North Korea, though relatively 
short, allows for some defections, refugee flows, and interaction with 
North Korean authorities. Furthermore, a declared policy of offering 
political asylum to those who escape should be adopted. A sufficient 
flow of refugees could, as in former East Germany, lead to the collapse 
of the regime without any bloodshed or war. If Russia wants to be 
considered a democracy and a partner in the war on terrorism, its 
actions with regard to North Korea, as well as the post-Soviet ``near 
abroad,'' rogue states, and its own dirty war in Chechnya, need to be 
the proof of such a commitment to a common goal.
    China, which shares a much longer border with North Korea, has a 
deeper, more significant relationship with Pyongyang--a relationship 
among dictatorial regimes that feel besieged by the democratic world's 
pull. While China is somewhat more open, it is integral to maintaining 
the regime it saved from annihilation in the Korean War. There is far 
greater interchange between China and North Korea. Defections and 
refugees from North Korea are common--some three hundred thousand in 
the past few years. Consistent with the rest of Chinese human rights 
practice, some are forcibly returned to North Korea. Others, as is the 
case with illegal aliens the world over, are kept in essentially 
chattel-slavery conditions in China. The communist Chinese regime's 
quest for international respectability, though doomed by its own 
essential nature, could be used to advantage in this most dire 
circumstance. It is against international law to return refugees to 
countries where they will likely be tortured or killed. Chinese 
commitments--indeed exhortations--that international law must be the 
basis for relations among nations should be invoked. In addition, this 
is the most permeable border into North Korea, and better intelligence 
on the state of the regime and the people of North Korea is best 
gathered here. Democracies should fund the resettlement in South Korea 
of Koreans who manage to escape the North Korean border guards.
    The bottom line is that Beijing needs to be forced to accept that 
North Korea will eventually reunify with South Korea in a democratic 
Korean state, and that the democracies wish to manage this, starting 
the process sooner rather than later. Of course, if China itself is 
democratized earlier than North Korea this problem evaporates.
    In addition to all this external activity, the democracies need to 
work to get inside the country directly. Why not up the ante by 
announcing that the United States, and other democracies wish to open 
embassies in Pyongyang? With the right talent in even a handful of 
democratic embassies, the influence of democracies in North Korea--and 
over developments there--would increase exponentially. Like all 
embassies, these should be freedom houses, with Internet access and 
facilities where people can safely meet. The ambassadors and all their 
diplomatic staff need to make themselves visible on the scene in 
Pyongyang, testing their limits, traveling to the hinterland, reporting 
and networking and influencing, even passing out free radios able to 
receive foreign broadcasts, as our embassy office in Cuba has been 
doing.
    Under the leadership of the South Koreans, the democracies and NGOs 
need to vastly expand educational, cultural, scientific, people-to-
people, and other exchanges with North Koreans. This tried-and-true 
method had huge impact on opening up the USSR and Eastern Europe and 
can work in North Korea as well. Kim Jong Il has been willing to 
explore exchanges, although very tentatively and with repeated 
backsliding. Even if the initial areas the dictator is interested in 
should be restricted to such subjects as management training, learning 
how the World Bank and other international development institutions 
function and how commercial law works, the democracies should see this 
as the beginning of a process. While nervous and paranoid, Kim Jong Il, 
like most dictators, may begin to think he is smart enough to avoid the 
fate of others before him who thought they could control everything. We 
need to believe that he will fail once enough opening occurs.
    Managing the shift to reunification should start now. Because 
regimes rarely crumble according to a timetable, having a plan in place 
for the disintegration of the North Korean regime is imperative. The 
neighborhood needs to buy into the overall plan, or, as with China, be 
willing to stay out of the way. The whole democratic world must 
reassure the region, and Seoul most of all, that it will have resolute 
backup--including resources--when the process gains its own momentum. 
Fear of being overwhelmed is palpable, and understandable given the 
massive disparity that has grown between North and South Korea. This 
fear is perhaps the largest barrier to active South Korean government 
support for regime change in the North. They need reassurance that the 
process can be managed. The time to begin planning for what can be done 
in all conceivable scenarios is now.
    A major reason to begin post-communist planning now is to do it 
publicly, broadcast it to North Korea and therefore help raise 
expectations there, create momentum, make the prospect of radical 
change seem real and near-term. No dictatorship can long survive once 
the people withdraw their cooperation.
    Already, South Koreans and others are studying how Germany went 
about its unification in 1990, and what is to be avoided. While the 
analogy is imperfect, there are still lessons to learn. One obvious 
``don't'' is not to convert the North Korean currency on a basis too 
favorable to it. This killed East Germany's one competitive advantage--
low labor costs. Labor mobility will also have to wait for some time, 
until the North's economy has made some advances, so as not to swamp 
the South with cheaper labor and again, not to deny northern Korea its 
natural advantage in attracting investment. Squaring this need with the 
inevitable drive for family reunification and freedom of movement will 
be a difficult equation, and one that requires serious thinking now. 
Perhaps Korea should be reunited in principle after the dictator's 
ouster but with some degree of separation and autonomy for a transition 
period. A positive lesson from Germany's unification: building up 
infrastructure pays big dividends in enabling economic growth, 
attracting domestic and foreign investment, and stemming the exodus to 
more affluent areas. North Korea was once the country's industrial 
base, and industry requires serviceable roads, ports, railways, and 
communications systems.
    Cadres of South Korean police, administrators, and other managers 
will need to move north to help make the transition as smooth as 
possible. Northerners need to be brought into the process at all 
stages. Most important will be the early introduction of democratic 
political institutions and getting to the point where North Koreans can 
manage local matters in the same way South Koreans already do.
    One of the most positive models for a liberated North Korea is the 
example of South Korea. In a single lifetime, South Korea has risen 
from being considered a hopeless backwater under dictators to joining 
the Organization for Economic Cooperation and Development--the club of 
the world's richest democracies. South Koreans also had to struggle 
against and overcome dictatorship to achieve their freedom. Their 
ingenuity and know-how are already on hand.
    A campaign to help bring the world's most repressive regime down, 
with the North Koreans themselves leading the way for their own 
liberation, can make an entirely free and united Korea a reality. In 
parallel with all the other steps outlined above, from the outset we 
must be working with North and South Koreans and others to organize a 
non-violent movement to achieve this objective. In a sense, all the 
other steps are designed to open the space for a nonviolent movement to 
operate and succeed.
    Trying to force dictators to modify the worst aspects of their 
behavior may certainly help to lessen the human suffering they cause. 
Soviet leader Nikita Sergeyevich Krushchev closed down much of Stalin's 
gulag; and we should strive to get Kim Jong Il to do the same. But 
softening repression does not eliminate its cause; eliminating the 
dictator is the only way to do that. History provides no account of a 
dictator being converted into a democrat while still in power, or of 
relinquishing power of his own volition. The only way for democracy to 
emerge is for the dictator to go.
    How the dictator is challenged determines whether and how quickly 
he can be ousted, and it also has a crucial effect on whether 
sustainable democracy ensues. Armed rebellions usually fail, often even 
before they can begin. Even if they succeed, what comes after is 
typically no better, and frequently worse, than what they displace. 
Leaders of guerrilla movements are adept at the use of violence and 
take those skills with them when they take over presidential mansions: 
that is why violent revolutions typically produce repressive regimes. 
The people inherit only a new set of jailers.
    But there is another set of strategies for dissolving dictatorial 
power and establishing democracy, and it has a remarkable record of 
success. In their seminal book, ``A Force More Powerful'', Peter 
Ackerman and Jack Du Vall document a dozen cases in which nonviolent 
popular movements prevailed against seemingly overwhelming odds and 
took power away from arbitrary rulers. My own experiences in the U.S. 
civil rights movement and in diplomatic service in communist countries 
confirm their view that political systems that deny people their rights 
can best be taken apart from the inside by the people themselves--of 
course with substantial assistance from outside.
    No dictator can hold power without sowing the seeds of popular 
discontent. Payoffs to cronies and constables who crack down on 
opponents eventually exude the smell of corruption, which is always 
deeply unpopular. The mothers and fathers of young dissidents who are 
``disappeared'' do not forget who is responsible for sundering their 
families. And few dictators are known for their brilliance in economic 
management: the economic crises that frequently follow can pile up more 
dry tinder of public resentment.
    From the moment when the match of organized nonviolent opposition 
is first struck to the day that the dictator steps down, years can 
elapse--or only weeks. Almost a decade passed between the first 
stirrings of organized dissidence against the Polish communist regime 
in the early 1970s and the appearance of Solidarity in the midst of the 
Gdansk shipyard strike. But forty years earlier, a general strike by 
the citizens of El Salvador had toppled a military tyrant in a matter 
of days. The difference is not in how much violence the state is 
prepared to use--the Salvadoran general was one of his country's 
bloodiest rulers. What makes for success is developing and 
communicating clear objectives for the struggle, organizing and 
mobilizing people on a wide scale, applying maximum pressure to the 
pillars of a regime's support, and protecting the movement from 
inevitable repression.
    In his landmark tract ``From Dictatorship to Democracy'' which has 
been translated into a dozen languages and used as a bible by 
dissidents from Burma to Serbia, Gene Sharp--the master theoretician of 
nonviolent conflict--identifies 198 separate methods of nonviolent 
action. From social and economic boycotts to industrial and rent 
strikes, and from outright civil disobedience to physical interventions 
such as sit-ins and occupations, the panoply of nonviolent weapons is 
far more diverse and inventive than the broadcast media's preoccupation 
with street marches would lead idle viewers to imagine.
    That nonviolent resistance can be at once robust and precise, 
widespread and carefully timed, is typically unexpected by outsiders, 
but not by the dictators who are its targets. They do not share the 
common misconceptions that nonviolent action is passive and reactive 
and that its leaders are amateurs or pacifists. Nonviolent movements 
that develop a systematic strategy to undermine their opponents and 
seize power are deliberately engaging in conflict, albeit with 
different resources and weapons.
    Even though these strategies do not use guns or explosives, they 
are not forms of conflict for the fainthearted. Nonviolent fighters 
often have to make protracted physical and economic sacrifices before 
they liberate their peoples. Many have to endure arrest, imprisonment, 
and torture. Many have been murdered. Yet tens of thousands of them, in 
conflict after conflict on five continents, have willingly faced these 
risks, in the interest of achieving freedom or justice.
    Shrewd leadership can help them minimize risks and maximize the 
political damage their movement inflicts on the dictator. In movements 
that need people at the working level of society to join open or 
clandestine opposition, leaders can enlarge the ranks only by showing 
people that the goals of the struggle are worthy, the strategy sound. 
So unlike organizations that employ violence, nonviolent movements 
cannot be operated like an army, strictly from the top down. Their 
leaders have to rely on the same skills that are needed in running a 
democracy: persuading people to go along and encouraging initiative at 
the grass roots. A nonviolent campaign is effective when it 
overstretches the capacity of a dictator to maintain business as usual; 
but it can do that only when it empowers people everywhere to challenge 
his control.
    Nonviolent power is therefore always rooted in the mind and action 
of the individual, and sometimes that action seems innocuous when the 
struggle is young. As Jan Bubec, the Czech student leader has said, 
most of the movements against communist rulers in central and eastern 
Europe first took the form of samizdat, or self-published books, 
pamphlets, and other literature. The civic action to curb the military 
dictatorship in Argentina in the late 1970s began with a handful of 
unsophisticated mothers of the disappeared marching in the capital's 
central square. Nonviolent combatants understand something that 
dictators do not: to be sustainable, social or political action has to 
be built on the choice of individuals to engage in it, not on state 
edicts that prod unwilling subjects into compliance.
    Although nonviolent resistance begins with the individual citizen, 
it has far more potential than violent insurrection to enlist all parts 
of the oppressed society in the cause. While violent skirmishing with 
police or soldiers may appeal to young firebrands, it frightens off 
older people and those without a taste for physical confrontation--in 
other words, the most stable elements of civil society, whose support 
is essential for lasting social or political change. By giving people 
from all walks of life (even children) ways of participating in a 
movement, nonviolent strategies enlarge the inventory of resources and 
tools available to undermine a regime.
    This eclectic, inclusive approach to mobilizing support can even 
extend to people within the regime. Dissatisfaction with a dictator is 
not limited to those who are politically motivated to oppose him. From 
lower-level apparatchiks all the way up to the praetorian guard, there 
is often fear and ambivalence in the ranks of the dictator's chosen 
servants and defenders. The greater the repression that the dictator 
has employed, the greater the opportunity to subvert the loyalty of 
those defenders--but not if the movement vilifies them. When Ferdinand 
Marcos fell in the Philippines in 1986, and when Slobodan Milosevic 
fell in Serbia in 2000, their own military officers and police refused 
final orders to crack down on the opposition. That could not have 
happened had nonviolent organizers demonized or picked fights with 
security and military services.
    Whether it is manifested in crowded public rallies or the emptiness 
of boycotted stores, in the boisterous occupation of key factories or 
the public stillness of a general strike, the vitality of a nonviolent 
movement necessarily raises popular expectations that it can work where 
other methods may have failed. Unless people are encouraged by the 
chance of victory to take action, they will never believe that change 
is possible. Nothing aids a dictator like the assumption that he cannot 
be vigorously challenged and when he is challenged the confidence of 
those whose support he requires to remain in power begins to erode. 
Then, when a movement's momentum builds from one engagement to the 
next, the whole nation will realize that the dictator's survival is in 
question.
    No dictator is exempt from having to face this question once a 
nonviolent movement opens up space for opposition. If we think that the 
dictators in Beijing and Pyongyang are too ruthless to be bothered by 
nonviolent challengers, we should revisit the story of Charlotte 
Israel, the German woman who organized a sit-in demonstration in the 
heart of Berlin in World War II and forced the Nazis to release her 
husband and thousands of other Jewish spouses who had been taken to the 
death camps.
    North Korea definitely offers reasons for optimism. It is perhaps 
the most brittle dictatorship in the world today. Seldom has a regime 
more fully failed its people and had as little legitimacy and popular 
support. We know from senior defectors that even those immediately 
around Kim Jong Il are more afraid than loyal, and that he himself is 
intensely afraid of being overthrown.
    We need to develop a training and support program for a non-violent 
movement for and inside North Korea, benefiting from the experience in 
South Korea, the Philippines, Indonesia, eastern Europe and elsewhere. 
Leaders from those successful movements should train Koreans. A 
volunteer cadre of those who have escaped from North Korea could form 
one core group for training in organization and conflict techniques. 
But others in South Korea and beyond can play important roles.
    Outsiders can help by delegitimizing Kim Jong Il. We need a new 
class of dictator-ousting sanctions narrowly targeted on him, as 
opposed to broad economic and other sanctions which wall off North 
Koreans, punish an already suffering people, reinforce the gulag and 
Kim's control. One such sanction gaining international precedent is to 
indict and try a dictator for crimes against humanity in a specially 
instituted tribunal. The basis for an indictment against Kim Jong Il is 
clear. David Hawk's magnificent and detailed report provides 
substantial material. Kim Jong Il also should be indicted for the 
deaths of some two million Koreans from starvation. He is also 
implicated in the assassination of South Korean cabinet ministers in 
Burma and the downing of a Korean airliner in the 1980s. I urge that 
dictatorship itself be declared a crime against humanity; by definition 
it denies an entire people of rights guaranteed under a host of 
international agreements adhered to even by North Korea. By treating 
Kim Jong Il as the criminal he is, we will undermine his attempt to 
appear almost like a god. We will show that the emperor has no clothes. 
This is profoundly important in building the will to resist and oust 
him.
    Outsiders also could help instill the will to resist among North 
Koreans by the sort of fireside chats which Prime Minister Churchill 
and President Roosevelt used to give the free world the courage to 
resist and defeat the fascists in World War II. Democratic leaders 
should make a weekly or monthly practice of speaking to the North 
Korean people via radio, television and the Internet. We persuaded over 
twenty prime ministers and presidents of democracies to join in 
broadcasting to Poland and Solidarity in the 1980s.
    Let us finish the job of bringing democracy to the Korean peninsula 
through the diplomacy of opening and liberation, and inspiring and 
supporting people power.

    Senator Brownback. Thank you, Ambassador. That's a very 
thoughtful set of comments from somebody, as they say, ``been 
there, done that,'' and I appreciate the thoughts.
    Professor, thank you very much for joining us. The 
microphone is yours.

 STATEMENT OF PROF. MIKE MOCHIZUKI, DIRECTOR, SIGUR CENTER FOR 
  ASIAN STUDIES, GEORGE WASHINGTON UNIVERSITY, WASHINGTON, DC

    Mr. Mochizuki. Thank you very much, Chairman Brownback, for 
this opportunity to appear before your subcommittee.
    We all agree that the North Korean state is a horrific and 
brutal regime that represses and tortures its own people, and 
we all agree that this state increasingly engages in 
international criminal activities to maintain the regime, and 
that its policies and behavior pose an acute threat to the 
stability of North East Asia and to our basic security 
interests and fundamental and moral values. But there is an 
honest and significant debate and disagreement about how best 
to deal with North Korea, about whether to and how to 
incorporate the human-rights issue in our dealings with the 
North Korean regime.
    In a book that Michael O'Hanlon and I recently published on 
this subject, we articulate and recommend a comprehensive and 
constructive engagement strategy toward North Korea. Simply 
put, the strategy involves a more-for- more approach. We would 
demand more from the North Korean state, but we would also 
offer more. We would offer regional security assurances, 
economic aid, technical assistance, and investments in order to 
entice North Korea to respond positively to a more ambitious 
agenda that would include conventional arms control and a 
human-rights dialog, as well as the dismantling of its nuclear 
weapons and missile programs.
    This strategy would seek to fundamentally alter the 
structure of incentives and disincentives with the North Korean 
regime. While mobilizing international pressure on North Korea, 
this approach would seek to steer the regime in a reformist 
direction by outlining a realistic path out of its present 
predicament. And we see a human-rights dialog, an improvement 
in the human-rights situation, in North Korea as an essential 
component of such a reform trajectory.
    The underlying logic or rationale of our more-for-more or 
grand-bargain approach becomes most evident when we compare our 
approach to other options or alternatives that have been 
pursued or suggested.
    One alternative is to focus primarily on the North Korean 
nuclear and ballistic missile threat. While recognizing and 
deploring the atrocities that North Korea commits against its 
own citizens, proponents of this narrow approach argue that 
broadening the agenda in our dealings with North Korea will 
only complicate our negotiations to denuclearize North Korea.
    But the recent track record shows the limitations of this 
narrow approach. North Korea has demonstrated that it will 
cheat on agreements and use its nuclear programs to blackmail 
the United States and the international community and extort 
external aid without fundamentally altering its behavior. We 
believe the only way to get out of this cycle of cheating, 
blackmail, and extortion is to encourage North Korea to 
demilitarize the society and implement economic reforms.
    Another alternative approach is what some call ``hawkish 
engagement.'' This approach involves maximizing international 
pressure on North Korea by avoiding bilateral negotiations with 
Pyongyang and insisting on multilateral talks through which 
China, Russia, and South Korea would join the United States and 
Japan in criticizing North Korean behavior and policies. 
Although proponents of this approach are willing to hint, in a 
piecemeal fashion, about possible positive incentives, such as 
security assurances and economic aid, they insist that North 
Korea must first agree to a verifiable and irreversible 
dismantling and end to its nuclear weapons program. The problem 
with this approach is that North Korea is unlikely to give up 
first its strongest diplomatic card before the details of our 
positive incentives are clearly and publicly articulated. The 
danger of this approach is that the multilateral talks might 
yield few positive results and ultimately allow North Korea to 
engage in stalling tactics while moving forward on the 
development of nuclear weapons.
    A third alternative is to dismiss the possibility of 
negotiating any kind of workable agreement with North Korea 
that it will honor. Proponents of this approach argue that what 
we should be doing is mobilizing an international coalition to 
squeeze the North Korean regime and ultimately provoke the 
collapse of the North Korean state.
    Although we might all like to see an alternative North 
Korean state emerge or to see Korean unification after the 
North Korean state collapses, a squeezing strategy entails 
major risks.
    First of all, there is the strong possibility that the 
North Korean state will not collapse easily. Instead, a 
squeezing strategy may cause the North Korean regime to expand 
its international criminal activities, worsen its abuses 
against its own people and engage in brinksmanship tactics that 
increase the danger of miscalculation and military conflict.
    Second, an abrupt collapse of the North Korean state could 
result in political and social chaos, with major negative 
ramifications for military and human security for which we are 
ill prepared.
    Finally, although China, Russia, and South Korea may be 
willing to apply diplomatic pressure against North Korea, these 
countries, and perhaps even Japan, are unlikely to join a 
squeezing strategy that would aim at provoking a collapse of 
the North Korean regime.
    Critics of Mike O'Hanlon's and my ``more-for-more'' or 
``grand-bargain'' proposal question whether North Korea would 
really respond favorably to such an approach. Of course, none 
of us can say with any certainty how North Korea will respond, 
because this approach has never been tried.
    But there are some indications that it is worth trying this 
course of action. First, studies of North Korean negotiating 
behavior suggest that the North Koreans become more responsive 
and flexible when the agenda is broadened beyond the nuclear 
issue. But broadening the agenda by proposing up front the 
vision of a grand bargain does not mean that everything has to 
be implemented at once. Indeed, the grand bargain can be 
implemented incrementally on the basis of mutual reciprocity. 
But to encourage responsiveness and flexibility on the part of 
North Korea, we recommend that the incentives be articulated in 
a clear and coherent package, rather than in piecemeal fashion, 
as the Bush administration is doing today.
    Second, since last summer, North Korea has taken some 
significant, although still limited and inadequate, steps 
toward economic reforms. Our approach would further encourage 
this direction.
    Third, our approach is more likely to win the support of 
the major states in the region--China, South Korea, Russia, and 
especially Japan, if the kidnaping issue is taken up as part of 
the human-rights dialog. Therefore, proposing the more-for-more 
bargain would allow us to mobilize the necessary international 
pressure to compel North Korea to be responsive to our 
approach. And if, in the end, our approach should fail, then 
the other countries would be more willing to consider harsher 
measures against North Korea.
    Finally, our approach attempts to get at the root cause of 
North Korea's economic problems, human rights abuses, its 
international criminal activities, and its nuclear weapons 
program--namely, the highly militarized nature of its society. 
By insisting on significant cuts in its conventional military 
as part of the Korean Peninsula conventional arms-control 
process, we could not only reduce the burden that the military 
imposes on the North Korean economy, but also gradually correct 
the major distortions of North Korean society. Such an 
approach, we feel, will work to soften and open up the country 
to more activities, like humanitarian non-government 
organizations, international business enterprises, and U.N.-
related organizations, and ultimately improve the horrific 
human-rights situation in that tragic country, and transform 
this brutal regime.
    Thank you very much.
    [The prepared statement of Mr. Mochizuki follows:]

Prepared Statement of Mike Mochizuki, Director of the Sigur Center for 
  Asian Studies, George Washington University, and Michael O'Hanlon, 
 Senior Fellow, Foreign Policy Studies, the Sydney Stein, Jr., Chair, 
                  Brookings Institute, Washington, DC

 TOWARDS A ``GRAND BARGAIN'' WITH NORTH KOREA INCLUDING A HUMAN RIGHTS 
                                 AGENDA

    Mr. Chairman, Mr. Ranking Member, other Senators on the committee, 
it is an honor to appear today to discuss the terrible human rights 
situation in contemporary North Korea, and the means by which the 
United States and its regional partners might seek to improve it.
    Our argument comes from a book that we recently wrote entitled 
Crisis on the Korean Peninsula: How to Deal with a Nuclear North Korea 
(McGraw-Hill, 2003) (The book is summarized in the attached article 
from The Washington Quarterly Autumn 2003 issue.) We make a proposal 
for a new, broader, more demanding negotiating agenda with the DPRK. 
Some have called this type of approach ``more for more''--greater 
incentives being offered to North Korea to change, but only in exchange 
for deep reforms in that country going well beyond resolution of the 
nuclear weapons issue.
    We include human rights centrally in the negotiating agenda--in the 
belief that American values and basic human decency demand it, and in 
the realpolitik conviction that any country with the current human 
rights practices of the DPRK cannot be a reliable negotiating partner 
of the United States. Among our demands are that North Korea allow the 
return of all Japanese kidnapping victims, and that it begin to engage 
the international community in a human rights dialogue about its prison 
camps and other forms of domestic repression that is akin to what we 
have conducted with China in recent times.
    The broader logic of our proposal is simple. We see a negotiation 
focused only on North Korea's nuclear weapons as posing a catch 22 for 
the United States. If we offer North Korea major benefits simply for 
returning to compliance with the 1994 Agreed Framework, we are 
rewarding proliferant behavior and giving in to a form of extortion. 
But if we follow the Bush administration's approach and demand that 
North Korea give up the illicit weapons first, before other issues such 
as economic development assistance can be discussed, progress is 
unlikely. Pyongyang probably sees nuclear weapons as perhaps its only 
real national asset and hence will probably refuse to surrender them 
without getting a good deal in return. This is a recipe for paralysis 
in the six-party talks expected to resume later this fall.
    The more logical, and it seems to us the more ethical, approach to 
take in this situation is to offer North Korea economic assistance, a 
lifting of trade sanctions, and tighter diplomatic ties and stronger 
security assurances--but only as a way of helping North Korea reform, 
not as a reward for its recent behavior or for its Stalinist form of 
government. We can only justify assistance and engagement with North 
Korea if the process begins to repair an abysmal regime--assuming it is 
not already beyond repair, as in fact it may be.
    A reform agenda must cover all the major issues dividing North 
Korea from the international community and resulting in the horrible 
plight of the North Korean people. That means it must address North 
Korea's oversized military and broken economy. It also means a serious 
negotiating agenda must compel North Korea to reassess and gradually 
change its horrendous and fundamentally immoral human rights record.
    This type of reform has occurred before within a communist system, 
most notably in Vietnam and China in recent times. It is hard to 
achieve, but clearly not impossible. Often, economic reforms lead the 
way followed by slower political change and improvement in human rights 
policy. Given the absence of appealing policy alternatives, we can 
accept such a gradual improvement in North Korean human rights in our 
judgment, as long as it is crystal clear that we will insist on 
improvement as part of any deal we negotiate with Pyongyang.
    However, attempting such change could also, of course, lead to an 
uncontrollable sequence of events resulting in such upheaval in North 
Korea as to produce the demise of that regime. While few in this 
country would lament such an event, North Korean leaders would surely 
fear it. That means they would be unlikely to accept such a broad 
agenda for reform, unless they also faced a stern international 
community threatening tougher action should the strategy of diplomatic 
engagement not succeed. Our proposed grand bargain thus requires a 
continuation of military deterrence and a willingness to use economic 
as well as even military coercion should diplomacy fail.
    By seriously attempting diplomacy first, however, and offering 
Pyongyang real incentives to change, the United States would improve 
its ability to convince South Korea, Japan, China, and Russia that 
tougher measures could be needed if an engagement strategy does not 
work.
    In sum, the broad point here is that even if one swallows disbelief 
and attempts a serious negotiating agenda with Pyongyang, as we 
advocate, such an engagement strategy should include a major human 
rights component. Expectations for rapid change must be realistic, but 
aspirations must be ambitious, and pressure on North Korea to change 
must be real. Both American values and hard-headed U.S. foreign policy 
interests demand it. No narrow negotiation that leaves the present DPRK 
regime unchanged, but for elimination of its nuclear program, can be 
expected to produce lasting stability in the region. No such 
negotiation is in fact even likely to succeed. Ironically, only by 
enlarging the diplomatic agenda with North Korea do we have any hope of 
making real progress--or, should talks fail, of convincing our regional 
security partners to resort to tougher measures if that becomes 
necessary.

         [From The Washington Quarterly  <bullet>  Autumn 2003]

                TOWARD A GRAND BARGAIN WITH NORTH KOREA

               (By Michael O'Hanlon and Mike Mochizuki *)
---------------------------------------------------------------------------

    * Michael O'Hanlon is a senior fellow at the Brookings Institution 
in Washington, D.C. Mike Mochizuki is a professor of political science 
and international affairs at George Washington University. O'Hanlon and 
Mochizuki are coauthors of Crisis on the Korean Peninsula: How to Deal 
with a Nuclear North Korea (McGraw-Hill, 2003).

    The most promising route to resolve the worsening nuclear crisis in 
Northeast Asia is for Washington, Tokyo, Seoul, and Beijing to pursue a 
grand bargain with Pyongyang. These governments need to recognize that 
North Korean economic atrophy, caused largely by North Korea's 
excessive conventional military force as well as its failed command-
economy system, is at the core of the nuclear crisis and that curing 
the latter can only be done by recognizing the underlying disease. This 
grand bargain should be big and bold in scope, addressing the 
underlying problem while providing bigger and better carrots with the 
actual potential to entice, together with tough demands on North Korea 
that go well beyond the nuclear issue. In this comprehensive way, 
policymakers would provide a road map for the vital and ultimate goal 
of denuclearizing North Korea. Through the stages of implementation, 
each side would retain leverage over the other as aid would be provided 
gradually to the Democratic People's Republic of Korea (DPRK) while the 
DPRK would cut or eliminate its weapons and reform its economy over 
time, thus reassuring each side that it was not being hoodwinked.

                      The Benefits of Thinking Big

    North Korea is likely to find a broad plan tough and demanding. 
Such a plan would result in major changes in DPRK security policy as 
well as its economy and even, to some extent, aspects of domestic 
policy such as human rights. Yet, such broad road maps are often 
useful. If the parties lay them out clearly and commit to them early in 
the process--even if implementation occurs over time--they can help 
countries on both sides focus on the potentially substantial benefits 
of a fruitful diplomatic process, thus reducing the odds that 
negotiations get bogged down in pursuit of marginal advantages on 
specific issues. Specific pledges can also help countries verify each 
other's commitment to actual results and thus enhance confidence.\1\

                    THE FAILURE OF DIPLOMACY DU JOUR

    U.S. policy toward North Korea in the last decade has been, for the 
most part, narrow and tactical, focusing on the crisis du jour rather 
than on a broader game plan. The 1994 Agreed Framework on North Korea's 
nuclear program required that the DPRK cease activities that could have 
given it a nuclear arsenal of 50 weapons by the decade's end; in 
exchange, the United States and other countries promised to provide 
North Korea with alternative energy sources. This deal was beneficial 
within its limited scope, but it failed to address the underlying 
problem or lead U.S. policymakers to pursue a broader vision beyond the 
specific attempt to buy out the North Korean missile program later in 
the decade. Such a tactical approach was perhaps inevitable in the 
early 1990s, when the Clinton administration was focused on domestic 
issues and was inexperienced in its foreign policy, as Somalia, Haiti, 
and Bosnia had shown. As a result of these distractions and 
inexperience, the Clinton administration had a difficult time at the 
highest levels of government focusing strategically on North Korea and 
thus failed to develop an integrated approach for dealing with 
Pyongyang that combined incentives with threats and deterrence.\2\
    A tactical, nuclear-specific focus that involved incentives to 
alter one specific type of behavior could have been defended as a 
reasonable approach in the early 1990s. Indeed, until stopped by the 
Clinton administration, Israel had reportedly been pursuing a deal to 
compensate North Korea for not selling missiles to Iran.\3\ If it made 
strategic sense for a security-conscious country such as Israel to 
consider buying out North Korea's missile program, why did it not make 
sense for the United States and its regional allies to buy out North 
Korea's even more dangerous nuclear program?
    In addition, after the dissolution of the Soviet bloc, many U.S. 
policymakers expected that North Korea would no longer enjoy the aid or 
favorable trading arrangements that it needed to survive and would soon 
collapse, thus obviating the need for a long-term solution. Other 
policymakers may have expected that concluding a deal on nuclear 
weapons would naturally lead to a quick thaw in relations on the 
peninsula without any need to articulate a broader vision. In any 
event, even if some had wished to articulate such a vision, domestic 
politics in the United States and in South Korea, where hawks 
discouraged dealing with the Stalinist regime to the north, stood in 
the way. Moreover, a tactical, crisis-driven approach to dealing with 
North Korea did produce some temporary successes, the most significant 
being the Agreed Framework.
    Despite its reasonable logic, however, this approach is not as 
promising today.\4\ President George W. Bush has made it clear that he 
is opposed to new deals with North Korea on the nuclear issue that 
smack of blackmail. North Korea has now demonstrated its disinterest in 
an incremental, slow process of improving relations. It would not have 
developed its underground uranium-enrichment program--a clear and 
blatant violation of the Agreed Framework, which required North Korean 
compliance with the Nuclear Non-Proliferation Treaty--were it content 
with the benefits of such a patient approach.
    In addition, the type of limited engagement pursued over the last 
decade may have inadvertently encouraged the DPRK to develop a 
counterproductive habit of using its weapons programs to gain money and 
diplomatic attention. Whether one views this tendency as extortion or 
as the desperate actions of a failing regime, the outcome has been the 
same.

                              THINKING BIG

    Aiming for a big, multifaceted deal might seem counter intuitive 
when Washington and Pyongyang cannot even sustain a narrow agreement on 
a specific issue. A recent CSIS report even explicitly argued against 
making any proposal that included ambitious conventional-arms 
reductions on the grounds that such broad demands could only be a 
recipe for stalemate and failure.\5\ The 1999 Perry report, drafted by 
a policy review team led by former secretary of defense William Perry, 
also took aim at broad proposals, suggesting that they would meet 
resistance in Pyongyang, which would see any attempt at major reforms 
as a measure designed to undermine the regime.\6\
    The current situation is at an impasse, however; a new idea is 
needed. The Bush administration's proposal, which demands broad 
concessions from North Korea, especially on the nuclear weapons front, 
without offering any concrete incentives in return and which resists 
bilateral negotiations with Pyongyang, is probably not that new idea. 
It stands little chance of convincing Pyongyang to change course. 
Coercion is unlikely to bring about North Korea's collapse or to 
convince Pyongyang to change its policy quickly enough to prevent a 
major nuclear crisis in Northeast Asia. Furthermore, this approach 
elicits little support from key U.S. security partners in the region. 
South Korea under the Roh government certainly prefers diplomatic 
engagement over coercion, and although Japan has recently become 
tougher by stopping North Korean shipping and considering tighter 
economic sanctions, it still wants to avoid a military crisis that 
risks war on the Korean peninsula.
    Aiming for a larger bargain in which more is offered to North Korea 
but more is also demanded in return risks little except a bit of money. 
On the upside, it has the potential to break the current impasse in 
Northeast Asia, just as broad visions or road maps have guided other 
recent peace negotiations in the Balkans and the Middle East (with many 
obvious limitations and setbacks, but some real successes to date as 
well). The grand bargain approach can benefit both sides. The United 
States and its allies can reduce the DPRK threat across the board and 
begin to turn that police state away from a policy of reflexive 
confrontation and blackmail, while North Korea can gain greater levels 
of assistance over time and perhaps can begin to reform its economy in 
the way China did--and as Pyongyang seems to desire, at least 
occasionally.
    Moreover, studies of North Korean negotiating behavior\7\ suggest 
that broader deals may work better than narrow proposals on specific 
issues. This seemed to be the pattern in the 1993-1994 negotiations 
leading to the Agreed Framework. Although these talks progressed slowly 
for a year or so, they produced an accord once the negotiations were 
broadened beyond the nuclear weapons issue to include energy, 
economics, security, and diplomatic incentives. Alas, the promises made 
in this deal were never realized, as all parties (especially the DPRK) 
put up roadblocks, but the inclusion of these dimensions of the 
relationship nonetheless helped produce the initial agreement.
    In addition to other advantages, a broader approach would also 
provide the bold initiative that the Roh government suggested that the 
United States offer to Pyongyang.\8\ Without strong cooperation between 
Seoul and Washington, no plan for dealing with North Korea can work. 
Indeed, if Pyongyang senses dissension and discord in the U.S.-South 
Korean alliance, the North Korean government will probably revert to 
its traditional temptation of trying to split the two allies.
    Beyond cooperation with South Korea, a grand bargain proposal can 
make U.S. policy much more palatable to other key regional players--
Japan and China. Collaboration among these four countries in their 
basic approach to resolving the North Korean problem is essential to 
prevent Pyongyang from being tempted to play one government off against 
the others, as it often has done in the past, and to enable these four 
countries to work together to pursue their common goals.\9\ Yet, they 
will not unite behind a policy that begins with hard-line measures; in 
particular, South Korea and China will consider taking a tough stance 
against Pyongyang only after serious diplomatic steps have clearly been 
attempted and have failed. Uniting the four players is thus the best 
way both to improve the prospects for diplomacy and a successful 
coercive strategy, should that diplomacy fail.

                             Making It Work

    For the grand bargain to work, both carrots and sticks are needed--
incentives as well as resolute deterrence and even threats if need be. 
Beyond the nuclear issue, such a grand bargain must also address the 
broader problems on the Korean peninsula--most notably North Korea's 
oversized military and undersized economy, as well as a horrible human 
rights record that is repressive even by Communist standards.

                      BALANCING CARROTS AND STICKS

    A policy that uses carrots and sticks is not necessarily a 
contradictory one. Although the world should not give Pyongyang 
substantial aid and other benefits simply to appease a dangerous leader 
or to solve an immediate security crisis, the United States and its 
allies can and should be generous if North Korea is prepared to 
eliminate its nuclear weapons programs, transform the broader security 
situation on the peninsula, reform its economy, and even begin to 
change its society. Doing so would not show weakness but rather provide 
a way to solve--not postpone--an important security problem by changing 
the fundamental nature of the adversary.
    Moreover, depending on the particular circumstances surrounding 
negotiations, the grand bargain's strategic use of carrots can help 
retain the threat of a military strike against Yongbyon as a last 
resort. Although Washington has been unable to convince Seoul of the 
need for such a threat today, that situation could change. A committed, 
initial attempt at diplomacy, including the offer of numerous 
inducements for North Korea, would give the United States a better 
chance of getting its regional allies to support a military threat as a 
last resort. By providing more carrots, the U.S. government might thus 
gain greater support for the possible, subsequent use of a stick.\10\
    Any military strike at North Korea's nuclear reactors and plutonium 
reprocessing facilities at its Yongbyon site north of Pyongyang would 
be extremely risky in light of the possibility that a larger war would 
result. Furthermore, a military strike would probably fail to destroy 
or render unusable many of North Korea's spent fuel rods, meaning that 
the DPRK might still manufacture one or more weapons even after an 
attack. (Although some may be concerned about direct radioactive 
fallout, studies conducted by the Pentagon in the early 1990s concluded 
that radioactive release would probably be quite limited, unless an 
operational nuclear reactor with heavily irradiated fuel was struck.)
    Nevertheless, the preemption option would arguably be preferable to 
an unchecked, large-scale DPRK nuclear program, if someday that was the 
only alternative. Such a threat was credible when the Clinton 
administration made it in 1994 because South Korea did not 
fundamentally object. The Bush administration can probably make it 
credible again by pursuing better diplomacy and better coordination 
with Seoul, Tokyo, and Beijing. A military strike is, of course, not 
likely to destroy either the DPRK's hidden uranium-enrichment program 
or the bomb or two that North Korea might have already, nor would 
military action destroy any additional plutonium moved from Yongbyon 
prior to the attack. Nevertheless, a strike could destroy the DPRK's 
nuclear reactors at the site, entomb the associated plutonium, and 
destroy the reprocessing facility--all with limited risk of radioactive 
fallout, according to former secretary of defense Perry and former 
assistant secretary Ashton Carter.\11\
    North Korea's true hard-liners may fear the Bush administration to 
such an extent that they argue against giving up their nuclear program 
at present--which also may have been the case during the Clinton 
administration.\12\ The grand bargain proposal may be able to convince 
the DPRK to abandon its nuclear programs gradually, however, through a 
combination of reassurances and inducements.\13\ Kim Jong Il has 
demonstrated sufficient interest in engaging with the outside world as 
well as in exploring economic reforms--evidenced by the creation of 
special economic zones, the recent liberalization of prices, and other 
tentative but real steps to try some of what China and Vietnam have 
successfully attempted in recent decades. The United States and other 
countries should seriously test his willingness to go further.
    Moreover, Kim Jong Il's position within North Korea now appears 
strong. He has used purges and promotions to produce a top officer 
corps loyal to him, and the likelihood that military commanders think 
that they have a solution of their own to solve North Korea's economic 
problems is slim. If a proposed package deal were to address the 
country's core security concerns while providing a real opportunity for 
recovery and greater international engagement, North Korea may very 
well take the idea seriously.\14\ A grand bargain that allowed North 
Korea to surrender its nuclear capabilities gradually while allowing it 
to keep some fraction of its conventional weaponry near the 
demilitarized zone (DMZ) just might persuade Pyongyang to get on board.
    The DPRK might prefer to have both aid and nuclear weapons, but the 
United States should try to force North Korea to choose between the 
two.\15\ This is in fact the crux of the logic behind the grand bargain 
approach: that North Korea can be forced to choose and that it can 
probably be induced to make the right, peaceful choice.
    The allies would not let down their military guard at any point 
during the proposed process nor would a failed experiment cause any 
other irrevocable harm. Even a failed effort to negotiate a grand 
bargain would at least temporarily ice the larger, visible part of the 
DPRK's nuclear program because no negotiations would proceed unless 
Pyongyang allowed monitoring of its program and froze it as well. 
Further, because the aid would be provided mostly in kind, not in cash, 
it would by itself do little to prop up a desperate regime with the 
hard currency it so desperately craves.

                     Going Beyond the Nuclear Issue

    By not fixating on just the nuclear program, ironically, a grand 
bargain is more likely ultimately to denuclearize North Korea and, most 
importantly, prevent any further development of North Korea's nuclear 
inventory. The proposed plan would begin by rapidly restoring fuel oil 
shipments and promising no immediate use of U.S. force if North Korea 
agreed to freeze its nuclear activities, particularly plutonium 
production and reprocessing at Yongbyon, while negotiations are under 
way. These steps would simply ensure that neither party had to 
negotiate under duress.
    As for its main substance, the approach would then seek to strike a 
deal on nuclear weapons. The proposal would replace North Korea's 
nuclear facilities at Yongbyon with conventional power sources and 
include rigorous monitoring of North Korea's nuclear-related sites as 
well as short-notice challenge inspections at places where outside 
intelligence suspected nuclear-related activity.
    Given North Korea's concerns about the Bush administration's 
doctrine of preemption and the success of military operations against 
Iraq, convincing the DPRK to give up all its nuclear capabilities 
immediately might not be feasible.\16\ In fact, it might take several 
years, perhaps even until the end of the decade, to reach that final 
goal. The United States could accept any deal, however, that could 
immediately freeze the DPRK's nuclear activities verifiably and then 
quickly begin to get fuel rods out of North Korea.
    Beyond nuclear issues, both sides would cut the overall number of 
conventional forces as well as accompany those cuts with a commitment 
by South Korea, China, Japan, and the United States to help North Korea 
gradually restructure its economy. Cuts of 50 percent or more in 
conventional weaponry would reduce the threat that North Korea's 
artillery and rocket forces currently pose to South Korea, particularly 
to nearby Seoul. Unlike some proposals, the grand bargain would not 
entail the North Korean withdrawal of all its conventional capabilities 
from the DMZ. North Korea almost surely considers its forward-deployed 
forces necessary to deter South Korea and the United States. Hence, the 
DPRK cannot realistically be expected to surrender both its weapons of 
mass destruction (WMD) and its conventional deterrent.
    The principal purpose of these conventional reductions actually 
would be as much economic as military. Offering aid tied to cuts in 
conventional arms makes more economic sense than buying out nuclear and 
missile programs. Secretary of Defense Donald Rumsfeld recently 
convincingly argued that the real solution to North Korea's problems is 
for the country to move toward a market economy, because that approach 
has worked for other Communist states in East Asia, notably China and 
Vietnam.\17\ North Korea may actually be planning secretly to make cuts 
in its conventional forces anyway.\18\ A combination of cuts in DPRK 
forces and economic reforms in the country stands the best chance of 
producing stabilizing and desirable results.
    If Pyongyang agreed to such reductions, North Korea's economy would 
benefit twice: by a reduction in the size and cost of its military and 
by obtaining greater technical and economic aid from Japan, South 
Korea, the United States, and perhaps China (as well as the lifting of 
U.S. trade sanctions). Specifically, such a deal should reduce North 
Korea's military expenditures substantially, helping reform the 
country's economy and increasing the likelihood that aid is used 
productively. North Korea's conventional military forces comprise one 
million individuals and are backed up by large reserve forces as well 
as a large arms industry. This situation suggests that the lion's share 
of North Korea's defense budget, which represents 20-30 percent of its 
gross domestic product, is consumed by conventional forces; therefore, 
reducing them should be a main focus of any reform proposal. External 
aid can help in that process.
    This policy would reduce the core threat that has existed in Korea 
for half a century, while offering at least some hope that economic 
reform in the DPRK might begin to succeed. Given this economic logic 
and rationale, it would only make sense to keep giving aid so long as 
North Korea continued down the path of economic reform. China could 
provide technical help, in light of its experiences over the last 25 
years in gradually introducing entrepreneurial activity into a 
Communist economy.
    China's experience could also offer reassurance--surely important 
to North Korean leaders--that it is possible to reform a command 
economy without losing political power in the process. Even though most 
Americans would surely prefer to see North Korea's corrupt and ruthless 
government fall, pursuing a policy that would achieve that outcome does 
not seem realistic without incurring huge security risks and exacting 
an enormous humanitarian toll on the North Korean people--nor would 
China and South Korea likely support it under current circumstances. 
Moreover, by accepting this grand bargain proposal, North Korea would 
be agreeing to at least a gradual and soft, or ``velvet,'' form of 
regime change, even if Kim Jong Il were to retain power throughout the 
process.
    Additional elements of the grand bargain would include North Korean 
commitments to:

  <bullet> continue to refrain from terrorism;

  <bullet> permanently return all kidnapping victims to Japan;

  <bullet> participate in a human rights dialogue, similar to China in 
        recent years;

  <bullet> end DPRK counterfeiting and drug smuggling activities;

  <bullet> sign and implement its obligations under the chemical 
        weapons and biological weapons conventions; and

  <bullet> stop exports and production of ballistic missiles.

    For its part of the grand bargain, the United States would offer 
numerous benefits beyond economic and energy assistance, none of which 
would require a change in the U.S. government's fundamental regional 
policies. The White House would:

  <bullet> commence diplomatic ties with North Korea;

  <bullet> end economic sanctions;

  <bullet> remove North Korea's name from the list of state sponsors of 
        terrorism;

  <bullet> give a binding promise not to be the first to use WMD;

  <bullet> provide a nonaggression pledge--a promise not to attack 
        North Korea first with any types of weaponry for any purpose 
        (and perhaps even an active security guarantee if North Korea 
        wished, akin to what the United States provides to its allies); 
        and

  <bullet> sign a formal peace treaty ending the Korean War.

                         Breaking the Stalemate

    After a decade of issue-by-issue and initially fruitful 
negotiations, a broad vision is now needed to resolve the impasse on 
the Korean peninsula. This idea must address the underlying cause of 
the problem--North Korea's economic and societal collapse, together 
with its failed experiment in communism and its juche system of self-
reliance--as well as the immediate nuclear symptoms of that disease.
    Although couched in broad and ambitious terms, the proposed road 
map could be put into effect gradually. Intrusive nuclear inspections 
typically take months or longer, reductions in conventional forces take 
at least a couple of years, and development programs take even longer. 
Thus, the concept is grand in its intent and scope, but implementation 
of the policy need not be rushed. In fact, the need for gradual 
implementation would provide each side with leverage over the other.
    The United States and its partners would continue to provide aid 
and economic support only if North Korea upheld its end of the bargain. 
Similarly, security guarantees would be contingent on complete 
compliance with denuclearization demands as well as other elements of 
the proposal. For its part, North Korea would not have to give up all 
its nuclear potential until it gained a number of concrete benefits, 
and the government would not have to keep reducing conventional forces 
unless outside powers continued to provide assistance.
    Although reductions in conventional forces are the linchpin of the 
grand bargain's success, numerous additional key elements are involved, 
the most important of which is a broad approach to economic reform in 
North Korea. There is reason to believe that the economic reform model 
that worked in China starting about a quarter century ago can work in 
Korea today, although each case is distinct. If that is the case, a 
grand bargain could do much more than address an acute nuclear security 
problem; the approach could begin to transform what has been one of the 
world's most troubled and dangerous regions for decades.

                                 NOTES

    \1\ Richard N. Haass and Meghan L. O'Sullivan, ``Terms of 
Engagement: Alternatives to Punitive Policies,'' Survival 42, no. 2 
(summer 2000): 120-121.
    \2\ Leon V. Sigal, Disarming Strangers: Nuclear Diplomacy with 
North Korea (Princeton, N.J.: Princeton University Press, 1998), pp. 
52-65.
    \3\ Ibid.,pp.66-67.
    \4\ See Morton I. Abramowitz and James T. Laney, Testing North 
Korea: The Next Stage in U.S. and ROK Policy (New York: Council on 
Foreign Relations, 2001), www.cfr.org/pdf/Korea_TaskForce2.pdf 
(accessed June 19, 2003). For more recent arguments along similar 
lines, see Brent Scowcroft and Daniel Poneman, ``Korea Can't Wait,'' 
Washington Post, February 16, 2003; Samuel R. Berger and Robert L. 
Gallucci, ``Two Crises, No Back Burner,'' Washington Post, December 31, 
2002; William S. Cohen, ``Huffing and Puffing Won't Do,'' Washington 
Post, January 7, 2003; Ashton B. Carter, ``Alternatives to Letting 
North Korea Go Nuclear,'' testimony before the Senate Committee on 
Foreign Relations, Washington, D.C., March 6, 2003; Sonni Efron, 
``Experts Call for N. Korea Dialogue,'' Los Angeles Times, March 7, 
2003 (citing testimony by Robert Einhorn); Morton Abramowitz and James 
Laney, ``A Letter from the Independent Task Force on Korea to the 
Administration,'' November 26, 2002, www.cfr.org/publication.php?id5304 
(accessed June 18, 2003); ``Turning Point in Korea: New Dangers and New 
Opportunities for the United States,'' February 2003, 
www.ciponline.org/asia/taskforce.pdf (accessed June 18, 2003) (report 
of the Task Force on U.S. Korea policy).
    \5\ CSIS International Security Program Working Group, 
``Conventional Arms Control on the Korean Peninsula,'' Washington, 
D.C., August 2002, www.csis.org/isp/ conv_armscontrol.pdf (accessed 
June 18, 2003). See Alan D. Romberg and Michael D. Swaine, ``The North 
Korea Nuclear Crisis: A Strategy for Negotiation,'' Arms Control Today 
33, no. 4 (May 2003): 4-7.
    \6\ William J. Perry, ``Review of United States Policy Toward North 
Korea: Findings and Recommendations,'' Washington, D.C., October 12, 
1999, www.state.gov/www/regions/eap/991012_northkorea_rpt.html 
(accessed June 18, 2003).
    \7\ Scott Snyder, Negotiating on the Edge (Washington, D.C.: U.S. 
Institute of Peace, 1999), pp. 58-60, 143-153; Sigal, Disarming 
Strangers, pp. 52-65, 78.
    \8\ See ``S. Korea Urges U.S. Initiative for North,'' Washington 
Post, March 29, 2003.
    \9\ See Snyder, Negotiating on the Edge, pp. 149-150.
    \10\ Gary Samore, ``The Korean Nuclear Crisis,'' Survival 45, no. 1 
(spring 2003): 19-22.
    \11\ See Ashton B. Carter and William J. Perry, ``Back to the 
Brink,'' Washington Post, October 20, 2002.
    \12\ See Philip W. Yun, ``The Devil We Know in N. Korea May Be 
Better Than the Ones We Don't,'' Los Angeles Times, May 7, 2003.
    \13\ See Michael Armacost, Daniel I. Okimoto, and Gi-Wook Shin, 
``Addressing the North Korea Nuclear Challenge,'' Asia/Pacific Research 
Center, Institute for International Studies, Stanford University, April 
15, 2003, www.asck.org/reports/APARC_Brief_1_2003.pdf (accessed June 
18, 2003).
    \14\ See Kongdan Oh and Ralph C. Hassig, North Korea Through the 
Looking Glass (Washington, D.C.: Brookings Institution, 2000), pp. 114-
124.
    \15\ For a similar argument, see Joseph S. Nye, ``Bush Faces a 
Tougher Test in N. Korea,'' Boston Globe, May 7, 2003.
    \16\ See Doug Struck, ``Citing Iraq, N. Korea Signals Hard Line on 
Weapons Issues,'' Washington Post, March 30, 2003; James Brooke, 
``North Korea Watches War and Wonders What's Next,'' New York Times, 
March 31, 2003.
    \17\ Bill Sammon, ``N. Korea `Solution' a Market Economy,'' 
Washington Times, May 14, 2003.
    \18\ The North Korean statement of June 9, 2003, that justified its 
nuclear weapons programs as a way to compensate for reductions in 
conventional military forces suggests such an inference. David Sanger, 
``North Korea Says It Seeks to Develop Nuclear Arms,'' New York Times, 
June 10, 2003, p. A9.

Copyright 2003 by The Center for Strategic and International Studies 
and the Massachusetts Institute of Technology

    Senator Brownback. Thank you very much, professor.
    And I want to thank all the panelists.
    First, Mr. Hawk, this is the best detailed description and 
the marrying together that I've seen of the stories that I have 
heard, the interviews that I have done with a number of 
refugees coming out of North Korea, and then matching them with 
the satellite photography. I think it's an excellent 
contribution that you're making to the debate of something the 
North Koreans have denied for years. They just say, ``Well, it 
doesn't exist,'' and you hear all this testimony coming out 
from people and then marrying the two up, I think it was a 
great contribution. I deeply appreciate that.
    But why is it taking us so long, in the international 
community, to recognize the size and scale of this horrific 
gulag system and deaths that are taking place in North Korea? 
In this day and age, it seems like this is something we should 
be on top of immediately. Why is it taking us so long?
    Mr. Hawk. I think primarily because of the extreme 
isolation of North Korea. Up until 2 years ago, they had 
relations, diplomatic relations, only with Soviet bloc 
countries. It's only within the last 2 years that you have the 
EU establishing diplomatic relations and the kind of talks that 
that allows, and it's only within the last 2 years that you 
have a large enough body of former refugees, including former 
prisoners who have obtained asylum in South Korea, so that you 
have a critical mass there now of testimony and of evidence. 
Previously, you had Kang Chul Hwan's prison memoirs of Yodok, 
and you had Soon Ok Lee's book about ``The Eyes of the Tailless 
Animals,'' of her prison memoirs at Kaechon kyo-hwa-so, and you 
had a few other people who had given interviews in Seoul and 
also in Washington. But it's really only within the last 2 
years that you have enough--a critical mass of people who have 
obtained asylum. And, you know, they escaped into China and 
have to make their way to Mongolia or Hong Kong, most of them 
all the way down through Southern China, down through Burma, 
Vietnam, or Laos, into Cambodia, into Thailand, where they fly 
from Bangkok to Seoul and seek asylum in South Korea. So it's 
actually taken several years, or several months, for these 
former North Koreans to get to a place where journalists and 
human-rights researchers can get at them, and that's only been 
possible in the last 2 years.
    So I think it's largely because of the self-imposed 
isolation of the regime, which didn't have diplomats there, 
outside the Soviet bloc, and didn't allow journalists in, or 
academics, and certainly not human-rights investigators.
    Senator Brownback. When did large-scale refugee flights 
start out of North Korea, Mr. Hawk?
    Mr. Hawk. In the mid 1990s or the late 1990s, with the 
height of the famine crisis, when the production and 
distribution system broke down. And 1995 is the year often 
cited--that's when the North Koreans admitted they had a 
problem. But from that point on, when the distribution centers 
were no longer handing out food, and the production centers 
were no longer functioning and paying people to work, that you 
had people either fleeing North Korea to China to find food, or 
else sending a member of their family up to China to get a job 
to earn income to send the money back to North Korea so the 
family could obtain some food. So that only started in the mid- 
to late-1990s, and then it's really about 2000 when you start 
getting these people making their way to South Korea.
    Senator Brownback. I'm going to ask all of you gentlemen, 
and start with you, Mr. Hawk, on this. You've all stated that 
we need a human-rights portfolio in the package of negotiations 
that are taking place with North Korea and the surrounding 
countries and the United States.
    But let me pose the question to you in reverse. What are 
the dangers, if any, in failing to include human rights on the 
negotiating agenda? Say we just stay on a narrow issue that 
this is about nuclear weapons and the proliferation of nuclear 
weapons, and that's it. What is the danger of not including 
human rights in a negotiating portfolio?
    Mr. Hawk. To the extent to which I understand the North 
Korean negotiating position, they don't want only security 
arrangements. They want a security guarantee, but they also 
want large amounts of foreign aid, and they want lots of 
goodies, and they want foreign investment. And they want to be 
able to get investment from South Korea into various production 
zones from which goods are shipped to Europe and the United 
States, which is how most of the other countries in East Asia 
have developed and become prosperous. I think North Korea wants 
to join the queue of states of building toys and electronics et 
cetera, and shipping them to the United States. So if these 
issues that come up in the negotiations, then I don't see how 
you cannot also raise the issue of labor standards. I mean, 
we're not supposed to import slave or prison-labor-made goods 
anyway, and--I hope Congress will encourage the U.S. 
negotiators not to envision a situation where production for 
export zones are developed while domestic production is based 
on prison, slave, and forced labor.
    I believe it's the North Koreans who don't want to accept a 
purely security tradeoff. I think their intent is to ask for a 
lot more than that. And as long as that is the case, then it 
seems that the ``basket-three'' equivalent should be put on the 
table. The humanitarian and human-rights considerations--the 
elements that are enumerated in the conclusions and appendices 
of the report--provide the details and specifics of the human-
rights dialog that Mike's book talks about.
    Senator Brownback. Ambassador Palmer.
    Ambassador Palmer. Well, I think that the greatest danger 
is the nature of their regime does not change under those 
circumstances. If you continue to have a regime that's closed, 
that's involved with other terrorist states and encouraging 
terrorism--that is, exporting weapons to places like Pakistan, 
et cetera, or the delivery of weapons of mass destruction. I 
mean, unless you change the basic nature of the North Korean 
situation, the political situation there, internally, it will 
continue to be a very dangerous state. Even if you can get 
verified restrictions on their nuclear weapons program for 1 
year or 2 years, you'd never know when they're going to fall 
off the wagon even on that, and plus they may go ahead with BW 
programs or CW programs, or God knows what.
    So I think the only real secure guarantee that we will ever 
have that this regime is going to cease being the kind of 
menace to its neighbors and for that world that it is today is 
to change the regime. I mean, it's simple, to me.
    Senator Brownback. Professor.
    Mr. Mochizuki. I generally agree with that. Unless the 
regime is fundamentally transformed, I don't think that even if 
we do reach an agreement on the nuclear issue, a narrow 
agreement, that there will continue to be the cycle of 
cheating, blackmail, and extortion. And really it is an 
agreement that is bound to fail, like the one in 1994. So if 
you are going to tackle the nuclear issue, then you have to get 
at the fundamental problem, the nature of the regime.
    Senator Brownback. The North Koreans frequently employ a 
strategy of brinkmanship. And, particularly, Ambassador Palmer, 
I want you to address this in negotiations, given your 
background in the Soviet Union, Eastern Europe, fall of 
communism at that point in time. Are there any parallels to 
what you saw at that point in time in the brinkmanship versus 
what you're seeing now in the brinkmanship of North Korea? And 
are there any lessons that we can derive from what history 
would teach us then, to now?
    Ambassador Palmer. Yes, I think there are. The historical 
periods are kind of a little bit confusing, but, for example, 
when Khrushchev was threatening us with nuclear devastation, 
which he did quite openly, what it really indicated was not 
that he wanted to launch nuclear weapons against us, but he was 
desperate, in terms of his own domestic situation. And, of 
course, he was ultimately pushed out.
    I think that Gorbachev, who I knew directly--Gorbachev, 
there's some interesting--when you look at Kim Jong Il and what 
he's been going in the last 2 years, there's some interesting 
parallels between Gorbachev and Kim Jong Il. I think Gorbachev 
recognized and certainly talked with George Schultz and with 
President Reagan in my presence about--he didn't know what to 
do. You know, this was a man who was really adrift. He had tons 
of questions, and no answers. That's my sense of Kim Jong Il, 
that he's been traveling to Russia, traveling to China, trying 
to find answers. He's dabbled, he's put his toe in the water of 
a little bit of reform, which has unleashed all kinds of bad 
stuff, as well as some good stuff.
    And so I think it's very much in our interest to engage him 
directly. Him. Not the system or the regime or the government, 
but him. And in my book, I go on at some length about how to do 
this, both through carrots and sticks. I think it's important 
to talk with him about his alternatives. His alternatives are 
really that he goes down in history as a criminal and maybe 
ends up in jail or maybe even is dead, gets killed, like 
Ceaucescu, or he can cooperate with this transition, end up 
with a villa in Geneva, and, you know, have a nice life.
    So, you know, but we need to get close enough, somebody has 
to get close enough to him, and I would argue we ought to open 
an embassy in Pyongyang, which could distribute radios, so 
Norbert's balloons aren't the only way of getting radios in 
there. We ought to have an embassy there doing what our embassy 
in Havana is doing, giving out radios, which is the best thing 
that embassy, or office, in Havana, has ever done. And we could 
do that in Pyongyang. But you need to be on the ground.
    So I think that we ought to go in there. I very much agree 
with David's point that they want a big, broad agenda, and we 
ought to run in there and say, ``Terrific. We want a big, broad 
agenda, too.'' I think he's desperate. I think he knows he's in 
trouble, and we ought to be confident enough to use our 
strength when he's in trouble. And our strength is our values 
and our ideology. That's our strength. That's where we're on 
the side of the North Korean people. We ought to get in there, 
open up the place, and bring him down.
    Senator Brownback. Professor, would you respond to that 
same question?
    Mr. Mochizuki. Yes. I mean, it's definitely true that Kim 
Jong Il and his father engaged in brinksmanship tactics.
    But I think the problem is, is that our present piecemeal 
approach gives the initiative to North Korea and allows them to 
use brinksmanship in order to gain diplomatic leverage.
    Ambassador Palmer talked about a carrot-and-stick approach. 
I would argue that what we need is a sledgehammer-and-steaks 
approach, that we really maximize our international pressure, 
and that means getting not just Russia and South Korea and 
Japan onboard, but China onboard, but, at the same time, 
offering major incentives, like steaks. I mean, I think that's 
the only way you get out of this cycle of North Korea seizing 
the initiative by using brinksmanship and we basically pursue a 
reactive policy.
    Senator Brownback. Gentlemen, thank you very much for your 
insightfulness on a very difficult topic, and I appreciate it. 
And I appreciate particularly your policy recommendations that 
you brought here today.
    Now I'd like to invite the second panel to the table.
    Ms. Sandy Rios, who is the chairperson of the North Korean 
Freedom Coalition. She serves as president of Concerned Women 
of America, the nation's largest public-policy women's 
organization, with half a million members nationwide. She 
currently hosts Concerned Women Today, a daily radio program. 
She has an audience of nearly a million listeners a week.
    Mr. Kumar is advocacy director for Asia and the Pacific at 
Amnesty International. He is--on a personal note, many in the 
human-rights community continue to miss your former colleague, 
Mike Jay--a passionate advocate for North Korean refugees and, 
as I understand it, a key contributor to Amnesty 
International's report. I hope this hearing serves to advance 
the goals of Mike, as well.
    And then we have Mr. Joel Charny. He's vice president for 
Policy, Refugees International, recently returned from a trip 
to northeast China, where he had an opportunity to meet with 
and interview a number of North Korean refugees.
    I welcome all of you to the panel here today.
    And, Ms. Rios, please proceed with your testimony.

    STATEMENT OF SANDY RIOS, CHAIRMAN, NORTH KOREA FREEDOM 
    COALITION, AND PRESIDENT, CONCERNED WOMEN FOR AMERICA, 
                         WASHINGTON, DC

    Ms. Rios. Senator Brownback, it's a great privilege to be 
able to testify for you today. And I have to say, though, more 
than an honor; it's a responsibility for me, and I'd like to 
explain that.
    As you said, I am the president of Concerned Women for 
America, but I also wear the hat of chairman of the North Korea 
Freedom Coalition. While most of you in this room were 
grappling with the horrors of September 11, 2001, I and a few 
companions were traveling, unaware, in that dark and isolated 
land known as North Korea. We had crossed the bridge over the 
Tumen River by foot under the watchful eye of armed guards the 
day before, visited schools, seen their children perform with 
robotic excellence, enter the Presidential concubine's gambling 
casino and traveled around a vacation island viewing herds of 
seals from a rented speedboat. That's what we were doing as the 
World Center Trade Towers fell, and it wasn't until 24 hours 
after the fact, when we passed back across that bridge into 
northern Manchuria, that a restaurant owner told us the news. 
One of my companions from New York City used a satellite phone 
to call his wife, who then confirmed the dreadful news. We were 
then stranded in Beijing for several days and were finally able 
to make it out and back home, only by going through Japan.
    Our journey had begun in China, where our assignment was to 
interview North Korean refugees who had escaped and were hiding 
in northern Manchuria. Much of them had fled across the river, 
desperate for food. Much like the famed escapes of the 
oppressed East Germans over the Berlin Wall, the stories are 
legion of the heroism and determination that lack of freedom 
drives men and women to in this part of the world. The 
difference in the peoples lies in the end result. For the East 
Germans, to survive the escape was to be free. But for the 
North Koreans, to survive the escape was to eat, yes, but then 
to enter a twilight zone of existence that no person on this 
Earth should have to endure.
    It is the Chinese and ethnic Korean Christians who greet 
the refugees with rice and the love of God. They open their 
homes at great risk, knowing that their own fates will be 
determined by the dangers they dare to embrace. They take these 
people in willingly, sacrificially, and their faith is a 
testimony to the power of God in the face of abject evil.
    I sat on the floor with four young boys and their plump and 
smiling surrogate mother in the kitchen at her small home in a 
village up in the mountains. I said ``young boys'' because they 
appeared to be prepubescent teenagers, but, in reality, they 
were 16 and 17 years old. Their bodies were underdeveloped and 
malnourished due to the famine and to the fact that Kim Jong Il 
routes humanitarian aid to the military while starving his own 
people. They were told in school, incidentally, that there was 
no rice because the Americans had sunk the ships bringing in 
the food. Three of them, friends, had just recently swum across 
the Tumen River separating the two countries in a valiant and 
courageous effort to get food and, in one boy's case, to take 
the enormous risk of bringing some of it back to his starving 
mother.
    The boy who was planning to make that treacherous return 
trip was animated and smiling. He was filled with mission and 
purpose. And after telling us that he had learned about God in 
this loving sanctuary, our interpreter asked him if he was 
going to go back and declare his faith.
    With refreshing candor characteristic of his colorful 
personality, he said softly, ``I don't have that much faith 
yet.''
    Another one huddled beside me with the twisted, silent 
countenance only a trauma victim can display. He talked quietly 
about their dangerous swim across the river and how in one 
moment he thought he was going to die, how the other two boys 
encouraged him on, and how they had persevered to the shore for 
freedom, still with no expression, the voice subdued.
    The woman who had taken them in was constantly moving 
about, touching and hugging and feeding them. She was a 
Christian, one of the band of brave souls who are risking their 
own lives and well-being to help the people that no one wants, 
the North Korean refugees.
    The boys were not permitted to leave the house, they 
couldn't go to school, work, or play, because if caught they 
would be sent back and summarily executed. The Chinese 
Government doesn't want them. The South Korean Government 
doesn't want them, and the current U.S. policy severely limits 
sanctuary here. There is no place to go.
    As we tried to leave this mountain hideaway, neighbors came 
out of their houses, watching, not with innocent curiosity, but 
with the intention of spying and reporting on their rebellious 
neighbor. We shuddered to think of her fate as we pulled away.
    The next day, we ventured into a town on the border and 
tried, at least, in spite of passing an unexpected prison chain 
gang, to enter a Chinese apartment discretely. We quickly 
climbed the steps to the top floor and entered silently. We 
were ushered into a, sort of, family room, where five more 
refugees were sitting, along with the apartment dweller, 
another Christian and his wife who had opened their home. Once 
we entered the room, the doorbell rang, and an electric wave of 
tension surged through all of us. The man rushed to shut the 
door to the room, and another watched nervously out the window, 
and we felt, in that moment, the dread fear the Chinese and 
North Koreans live with daily. Our hearts pounded as we 
realized that it was a false alarm.
    I proceeded to interview two of the refugees. One was a 
young mother, who had fled across the Tumen River herself to 
get food for her husband and baby. She was aided, once again, 
by Christ's followers, who gave her rice and a small bible, 
after which she made the dangerous trip back with her treasure, 
she was subsequently caught and put in prison. And hatred of 
Christianity in North Korea was so great that if you are caught 
with a Bible not only do they punish you, but your parents and 
children, three generations. She was waiting for her sentence 
in the prison when she chose to jump from the top floor, an 
attempt to kill herself and hopefully save her family. She fell 
in a broken heap and was left for dead, but she was not dead. 
As I sat beside her on the floor, I saw the mangled bones in 
her feet and legs juxtaposed to her otherwise beautiful body 
and face. At 24, her life was over. She had lost her husband; 
her child; she could not leave this apartment, except in the 
dark of night; could not hold a job; had no future and no hope.
    Next, I turned to a 12-year-old girl hovering on a couch. 
Another child/adult wearing the unmistakable countenance of 
trauma, no expression; just a deep, deep furrow in her brow. 
Words without emotion devoid of eye contact. She told how for 
the past several years she had been hiking daily up into the 
mountains, a ten-kilometer walk one way, to spend the day 
picking branches off trees. She would then bundle them 
together, drag them back the same ten kilometers to sell them 
for the American equivalent of 25 cents in order to feed her 
sick father and little brother. Somehow she had escaped, but, 
in the process, her little brother had disappeared. It was in 
reliving that moment that she broke down and could not go on 
with her story.
    When I left that room, with those people, fully 
comprehending the risk that they had taken not only to escape 
but to allow me to come and hear their stories, I vowed to them 
on that day that they had not taken that risk in vain--that I 
would make sure their stories were told so that the whole world 
could hear.
    I was a radio talk-show host at the time, and confident I 
could go back and accomplish that. I was reporting for my new 
job here in Washington on October 15, but my plan was to use 
the 2-weeks I had left to expose the evil I had seen. Little 
did I know that my country would be attacked, leaving me and my 
companions stranded in Beijing, and that that would cut my 
remaining time on the air so short I wouldn't have the ability 
to do what I had earnestly promised. It grieved me to let them 
down in that way, but I couldn't see how my duties as president 
of Concerned Women for America would ever intersect with their 
needs.
    Leave it to the gracious God that I serve to find a way. 
The North Korea Freedom Coalition came about quite 
unexpectedly. My selection as chairman, an equal surprise, but 
it is a surprise I welcome, and it is with the passion of one 
who has seen the evil of Kim Jong Il and his regime that I lead 
and will continue to lead this group.
    I lived in Berlin, Germany, during the height of the cold 
war. I traveled regularly through Checkpoint Charlie into East 
Berlin and observed the palpable oppression of the East German 
people. I've been to Vietnam, to China several times, and to 
Russia before the breakup of the Soviet Union.
    I have tasted and smelled the evils of oppression, but I 
can tell you that I don't think anything matches the horror of 
life in North Korea. That's why I stand to speak and, if 
necessary, shout their cause for them today.
    The North Korea Freedom Coalition is a bipartisan coalition 
of religious, human-rights, non-governmental Korean and 
American organizations whose prime purpose is to bring freedom 
to the North Korean people and to ensure that the human-rights 
component of the U.S. and world policy toward North Korea 
receive priority attention.
    We're a coalition of both the ideological left and right, 
ranging from the Salvation Army USA to the Religious Action 
Center of Reform Judaism headed by David Saperstein, because on 
issues of human need and desperation we can most certainly 
agree.
    We are strong supporters of the North Korea Freedom Act of 
2003, as you know, Senator Brownback, the soon to be bipartisan 
act that will promote human rights, democracy, and development 
in North Korea. The provisions contained in the act will 
provide safe harbor for North Korean refugees, provide ways to 
get information and food to those starving for both, monitor 
the death camps so well detailed in David Hawk's report, and 
make sure that not one American dollar is spent to build 
another gulag. Further, any negotiating with the North Korean 
regime that says, ``You can continue to starve and torture your 
people as long as you dismantle the weapons of mass 
destruction,'' is as unacceptable as it is un-American.
    And while we wish no harm to our South Korean friends, we 
also stand to remind them that it is equally unacceptable for 
them to prop up a regime that is starving and torturing their 
relatives to the north, because the consequences of saving them 
would be too costly.
    We will encourage our government to help South Korea absorb 
the difficulties that may come, but only the extent that the 
South ceases to aid and abet the murderous regime of the North.
    Not only are we determined to get information and freedom 
into North Korea, we are determined to get the word out, in the 
West, of the brutality and starvation of the North Korean 
people by their ``Dear Leader.'' We believe that, by God's 
grace, the net effect of such a movement can be much the same 
as the fall of both the Soviet Union and the Berlin Wall, no 
shots fired, just freedom imploding.
    President Bush has led the way on this issue by boldly and 
rightly declaring North Korea part of an ``axis of evil.'' This 
is no time for the faint of heart or spineless appeasers. This 
is a time for Americans of all political stripes to unite for a 
noble purpose: to bring freedom, food, and wholeness to the 
suffering people of North Korea.
    Senator Brownback, one additional word. We have been able 
to, I guess, find a lot of resonation with this piece of 
legislation with unexpected groups here in the country, and one 
of those is South Korean students in America. Let me just 
mention a few groups that have signed onto this legislation. 
The Korean American Students at Yale, the MIT Asian Christian 
Fellowship, the Brandeis Korean Students Association, the UC-
Berkeley Students Praying for North Korea, and Korea-American 
Student Association at Stanford, and there's a ton of others. 
South Korean churches in this country are mightily stirred by 
this, and they're coming out in support of this act. In fact, 
we've received petitions containing 6,438 signatures of Korean 
Americans who support this legislation from 93 Korean American 
churches in 18 different states in the nation, and this, sir, 
is just the beginning.
    Thank you so much for this time.
    [The prepared statement of Ms. Rios follows:]

    Prepared Statement of Sandy Rios, Chairman, North Korea Freedom 
  Coalition and President, Concerned Women for America, Washington, DC

    Mr. Chairman and members of the committee, I consider it a great 
honor to testify before you today, but more than an honor, a 
responsibility. I will explain. I am the President of Concerned Women 
for America, the largest public policy women's organization in the 
country, but I come before you today wearing a different hat, that of 
Chairman of the North Korea Freedom Coalition.
    While most of you were grappling with the horrors of September 11, 
2001, I and a few companions were traveling unaware in that dark and 
isolated land known as North Korea. We had crossed the bridge over the 
Tumen River by foot under the watchful eye of armed guards the day 
before, visited their schools, seen their children perform with robotic 
excellence, entered the presidential concubine's gambling casino and 
traveled around a ``vacation island,'' viewing herds of seals from a 
rented speedboat. That's what we were doing as the World Center Trade 
Towers fell, and it wasn't until 24 hours after the fact, when we 
passed back across the bridge into Northern Manchuria, that a 
restaurant owner told us the news. One of my companions from New York 
City used a satellite phone to call his wife who confirmed the dreadful 
news.
    We were then stranded in Beijing for several days and were finally 
able to make it out and back home only by going through Japan.
    Our journey had begun in China where our assignment was to 
interview North Korean refugees who had escaped and were hiding in 
Northern Manchuria. Most of them had fled across the river desperate 
for food. Much like the famed escapes of the oppressed East Germans 
over the Berlin Wall, the stories are legion of the heroism and 
determination that lack of freedom drives men and women to in this part 
of the world. The difference in the peoples lies in the end result. For 
the East Germans, to survive the escape was to be free. For the North 
Koreans, to survive the escape was to eat, yes . . . but then to enter 
a twilight zone of existence that no person on this Earth should have 
to endure.
    It is the Chinese and ethnic Korean Christians who greet the 
refugees with rice and the love of God. They open their homes at great 
risk, knowing that their own fate will be determined by the dangers 
they dare to embrace. But they take these people in willingly, 
sacrificially, and their faith is a testimony to the power of God in 
the face of abject evil.
    I sat on the floor with four young boys and their plump and smiling 
surrogate mother, in the kitchen of her small home in a village up in 
the mountains. I said young boys, because they appeared to be 
prepubescent teenagers, but in reality were 16 and 17 years old. Their 
bodies were underdeveloped and malnourished due to the famine and the 
fact that Kim Jong Il routes humanitarian aid to the military, while 
starving his own people. They were told in school, incidentally, that 
there was no rice because the Americans had sunk the ships bringing in 
the food. Three of them, friends, had just recently swum across the 
Tumen River separating the two countries in a valiant and courageous 
effort to get food, and in one boy's case, take the enormous risk of 
bringing some of it back to his starving mother.
    The boy who was planning to make that treacherous return trip was 
animated, smiling, filled with mission and purpose. After telling us 
that he had learned about God in this loving sanctuary, our interpreter 
asked if he would go back and declare his faith. With refreshing 
candor, characteristic of his colorful personality, he said softly, ``I 
don't have that much faith yet.'' Another one huddled beside me, with 
the twisted, silent countenance only a trauma victim can display. He 
talked quietly about their dangerous swim across the river and how in 
one moment he thought he was going to die . . . How the other two boys 
encouraged him on and how they had persevered to the shore for freedom. 
Still . . . no expression . . . the voice subdued.
    The woman who had taken them in was constantly moving about, 
touching and hugging and feeding them. She was a Christian . . . one of 
the band of brave souls who are risking their own lives and well being 
to help the people that no one wants . . . North Korean refugees. The 
boys were not permitted to leave the house . . . they couldn't go to 
school . . . work or play, because if caught, they would be sent back 
and summarily executed. The Chinese government doesn't want them. The 
South Korean government doesn't want them, and current U.S. policy 
severely limits sanctuary here. There is no place to go.
    As we tried to leave this mountain hideaway, neighbors came out of 
their houses, watching, not with innocent curiosity but with the intent 
of spying and reporting on their rebellious neighbor. We shuddered to 
think of her fate as we pulled away.
    The next day we ventured into a town on the border, and tried, at 
least, in spite of passing an unexpected prison chain gang, to enter a 
Chinese apartment discreetly. We quickly climbed the steps to the top 
floor and entered silently. We were ushered into a sort of family room 
where five more refugees were sitting, along with the apartment 
dweller, another Christian and his wife who had opened their home at 
great peril. Once we entered the room, the doorbell rang and an 
electric wave of tension surged through all of us. The man rushed to 
shut the door to our room, another watched nervously out the window, 
and we felt, in that moment, the dread fear the Chinese and North 
Koreans live with daily. Our hearts pounded as we realized that it was 
. . . a false alarm.
    I proceeded to interview two of the refugees. One, a young mother, 
had fled across the Tumen River herself to get food for her husband and 
baby. She was aided once again by Christ-followers who gave her rice 
and a small Bible, after which she made the dangerous trip back with 
her treasure. She was subsequently caught and put in prison. The hatred 
of Christianity in North Korea is so great that if you are caught with 
a Bible, not only do they execute you, but your parents and children--
three generations are slaughtered. She was waiting for her sentence in 
the prison, when she chose to jump from the top floor, an attempt to 
kill herself and hopefully save her family. She fell in a broken heap, 
and was left for dead. But she was not dead. As I sat beside her on the 
floor, I saw the mangled bones in her feet and legs juxtaposed to her 
otherwise beautiful body and face. At 24 her life was over. She had 
lost her husband . . . her child . . . she could not leave this 
apartment except in the dark of night . . . could not hold a job . . . 
no future . . . no hope.
    Next, I turned to a 12-year-old girl hovering on a couch--another 
child/adult wearing the unmistakable countenance of trauma. No 
expression . . . just a deep, deep furrow in her brow. Words, without 
emotion, devoid of eye contact. She told how for the past several years 
she had been walking daily up into the mountains, a 10 kilometer walk 
one way, to spend the day picking branches off trees. She would then 
bundle them together, drag them back the same 10 kilometers to sell 
them for the American equivalent of 25 cents in the market, in order to 
feed her sick father and little brother. Somehow she had escaped, but 
in the process her little brother had disappeared. It was in reliving 
that moment that she broke down and could not go on with her story.
    When I left that room with those people, fully comprehending the 
risk they had taken not only to escape but to allow me to come and hear 
their stories, I vowed to them on that day that they had not taken that 
risk in vain . . . that I would make sure their stories were told so 
that the world could hear.
    I was a radio talk-show host at the time, confident I could go back 
and accomplish that. I was reporting for my new job here in Washington 
on October 15, but my plan was to use the two weeks I had left to 
expose the evil I had seen. Little did I know that my country would be 
attacked, leaving me and my companions stranded in Beijing, and that 
that would cut my remaining time on the air so short, I wouldn't have 
the ability to do what I had earnestly promised.
    It grieved me to let them down in that way, but I couldn't see how 
my duties as President of Concerned Women for America would ever 
intersect with their need.
    Leave it to the gracious God that I serve to find a way. The North 
Korea Freedom Coalition came about quite unexpectedly, my selection as 
chairman an equal surprise. But it is a surprise I welcome, and it is 
with the passion of one who has seen the evil of the Kim Jong Il Regime 
that I lead and will continue to lead this group.
    I lived in Berlin, Germany, during the height of the Cold War, 
traveled regularly though Checkpoint Charlie into East Berlin and 
observed the palpable oppression of the East German people. I have been 
to Vietnam, China several times, and to Russia before the break up of 
the Soviet Union. I have tasted and smelled the evils of oppression, 
but I can tell you that I don't think anything matches the horror of 
life in North Korea. That is why I stand to speak and, if necessary, 
shout their cause for them today.
    The North Korea Freedom Coalition is a bipartisan coalition of 
religious, human rights, non-governmental, Korean and American 
organizations whose prime purpose is to bring freedom to the North 
Korean people and to ensure that the human rights component of the U.S. 
and world policy toward North Korea receives priority attention.
    We are a coalition of both the ideological left and right, ranging 
from The Salvation Army USA to the Religious Action Center of Reform 
Judaism headed by David Saperstein, because on issues of human need and 
desperation, we can most certainly agree.
    We are strong supporters of the North Korean Freedom Act of 2003, a 
soon-to-be bi-partisan act that will promote human rights, democracy, 
and development in North Korea. The provisions contained in the act 
will provide safe harbor for North Korean refugees, provide ways to get 
information and food to those starving for both, monitor the death 
camps so well-detailed in David Hawk's report, and make sure that not 
one American dollar is spent to build another gulag.
    Further, any negotiating with the North Korean regime that says 
``you can continue to starve and torture your people as long as you 
dismantle your weapons of mass destruction'' is as unacceptable as it 
is un-American.
    And while we wish no harm to our South Korean friends, we also 
stand to remind them that it is equally unacceptable for them to prop 
up a regime that is starving and torturing their relatives to the North 
because the consequences of saving them would be too costly.
    We will encourage our government to help South Korea absorb the 
difficulties that may come, but only to the extent that the South 
ceases to aid and abet the murderous regime of the North.
    Not only are we determined to get information and freedom INTO 
North Korea, we are determined to get the word out in the West of the 
brutality and starvation of the North Korean people by their ``Dear 
Leader.'' We believe that by God's grace the net effect of such a 
movement can be much the same as the fall of both the Soviet Union and 
the Berlin Wall. No shots fired--just freedom imploding.
    President Bush has led the way on this issue by boldly and rightly 
declaring North Korea part of an Axis of Evil. This is no time for the 
faint of heart or spineless appeasers. This is a time for Americans of 
all political stripes to unite for a noble purpose: To bring freedom, 
food and wholeness to the suffering people of North Korea.
    Thank you.

    Senator Brownback. Thank you for that passionate, clear 
presentation.
    Mr. Kumar, thank you very much for joining us, advocacy 
director for Asia and the Pacific, Amnesty International.

   STATEMENT OF T. KUMAR, ADVOCACY DIRECTOR FOR ASIA AND THE 
         PACIFIC, AMNESTY INTERNATIONAL, WASHINGTON, DC

    Mr. Kumar. Thank you very much, Mr. Chairman.
    Amnesty International is extremely pleased to testify here 
for two important reasons. The first reason is it's a closed 
country. Second, the human-rights abuses that are taking place 
in North Korea is extremely disturbing to us.
    We have been monitoring human rights around the world for 
more than 40 years. Our only job is monitoring human rights, 
not to take into consideration any other issues. First, I will 
list what abuses we have encountered there, which we have seen 
there. Second, I will go into details about what we feel is the 
best approach to deal with the abuses that are taking place.
    As I mentioned to you earlier, Mr. Chairman, this is a 
closed country. So the information that we get has to be 
extremely scrutinized and be verified. But despite these 
difficulties, we were able to come up with some excellent 
reporting of what's happening there.
    I think we are the only human-rights organization which was 
allowed to go to North Korea. We visited North Korea in 1995. 
But since we were not able to get free access to persons in 
other places, we came out and issued a very harsh statement in 
1995.
    The issues that we are concerned are public executions, 
where people have been gathered around grounds and people have 
been executed for various crimes, including people who have 
been sent back from China. Some of them have been executed. 
Torture resulting in death, inhumane prison conditions, and 
large-scale abuses and other abuses like torture, as I 
mentioned earlier.
    I would like to bring your attention to one issue that's 
disturbing us for the last 3 or 4 years.
    That's the issue of starvation and death.
    In mid 1990s, North Korea experienced famine and, as a 
result of famine, starvation due to natural disasters and 
economic mismanagement. The result of is, this is not our 
figure, it's the U.N. figure, is that 2 million people have 
died because of that famine and mismanagement of economic 
resources. Almost 40 percent of the children are chronically 
malnourished.
    Senator Brownback. Currently?
    Mr. Kumar. They are extremely chronically malnourished.
    Senator Brownback. But that's a current number?
    Mr. Kumar. Yes, that's the number--that's a U.N. figure.
    Almost half the population--that is 13 million--are also 
malnourished. And we are extremely fearful that any food 
embargoes that's being enforced, for whatever reason, can hurt 
the most vulnerable, like the children, elderly, pregnant 
women, nursing women, and the elderly. So we appeal to you, Mr. 
Chairman, please d-link any food embargoes when you consider 
any political consideration toward North Korea. We discussed 
this pretty much intensely internally as an organization, and 
we came up with the decision that our responsibility and the 
world's responsibility is to the people of North Korea. We 
should separate North Korean people from the regime. So we 
can't afford to have another 2 million perish because of famine 
there because we may be angry with the regime there. We can't 
allow children who are born because of famine, and then going 
through severe physical and mental problems when they are 
growing up. So that's our plea to you, Mr. Chairman.
    And how best to achieve transparency and to deal with North 
Korea is something--we thought the U.N. is the best method. 
Even though North Koreans invited us in 1995, they are 
extremely closed and extremely nervous about outsiders 
interfering into their so-called internal affairs. They have 
ratified four major U.N. conventions--civil and political 
rights, economic and social rights, the children's rights. So 
they have an obligation and duty to invite special rapporteurs 
to visit these--from these conventions to visit North Korea to 
investigate impartially. We will urge the administration and 
you to take the leadership in exerting pressure through the 
U.N. so that these people can--these special rapporteurs can 
make an impartial intervention in North Korea and find out 
what's happening there. That will be our recommendation, in 
terms of seeing what's happening inside in this closed country.
    In closing, Mr. Chairman, I would like to appeal to you 
again. We are extremely worried about the people of North 
Korea. We should never punish average citizens for somebody 
else's mistake. Let U.S. and other countries stand up and 
continue the food aid as they are giving now.
    Thank you very much.
    [The prepared statement of Mr. Kumar follows:]

  Prepared Statement of T. Kumar, Advocacy Director for Asia and the 
                   Pacific, Amnesty International USA

    Thank you Mr. Chairman and distinguished members of this committee. 
Amnesty International is pleased to testify at this important hearing. 
The human rights situation in North Korea has been a consistent and 
grave concern to Amnesty International. We last visited the country in 
1995 but were not allowed to undertake independent monitoring. Since 
that time, numerous attempts to enter the country to assess the human 
rights situation have been denied by the North Korean authorities. 
Despite the North Korean government's lack of cooperation, we have 
received numerous credible reports of grave abuses.
    Amnesty International's long-standing concerns about human rights 
violations in North Korea include the use of torture, the death 
penalty, arbitrary detention and imprisonment, inhumane prison 
conditions and the near-total suppression of fundamental freedoms, 
including freedom of expression, religion, and movement.
    In recent years, many human rights abuses in North Korea have been 
linked directly or indirectly to the famine and acute food shortages, 
which have affected the country since the mid-1990s. The famine and 
persistent acute food shortages have led to widespread malnutrition 
among the population and to the movement of hundreds of thousands of 
people in search of food--some across the border with China--many have 
become the victims of human rights violations as a result of their 
search for food and survival.
    In this context, Amnesty International believes that guaranteeing 
equitable distribution of food to all individuals in North Korea 
without discrimination is a key priority which the North Korean 
government must address urgently, in line with its international 
obligations, with appropriate assistance from the international 
community. The United States Government can play a leading role in 
helping to ensure that thousands of innocent civilians are spared the 
horrors of malnutrition and deaths due to hunger.

                 UNITED NATIONS HUMAN RIGHTS COMMISSION

    In a resolution on North Korea passed at the 58th session of the UN 
Commission on Human Rights in April 2003, the Commission expressing the 
Commission's deep concern about reports of systemic, widespread and 
grave violations of human rights in North Korea, including ``torture, 
public executions, and imposition of the death penalty for political 
reasons.''
    In the resolution, the Commission also expressed concern at ``the 
existence of a large number of prison camps, the extensive use of 
forced labour, and the lack of respect for the rights of persons 
deprived of their liberty.'' Other areas of concern included reports of 
``all-pervasive and severe restrictions on the freedoms of thought, 
conscience, religion, opinion and expression, peaceful assembly and 
association and on access of everyone to information, and limitations 
imposed on every person who wishes to move freely within the country 
and travel abroad.''
    The resolution also called on Pyongyang to implement ``its 
obligations under the International Covenant on Economic, Social and 
Cultural Rights, in particular concerning the right of everyone to be 
free from hunger.'' The resolution also requested ``the international 
community to continue to urge that humanitarian assistance, especially 
food aid, destined for the people of the Democratic People's Republic 
of Korea, be distributed in accordance with humanitarian principles and 
to ensure also the respect of the fundamental principles of asylum.''

                         RESTRICTIONS ON ACCESS

    There is little detailed information on the extent of human rights 
violations in North Korea due to the restrictions on access to the 
country for independent human rights monitors. Information and access 
to the country remain tightly controlled, hampering the investigation 
of the human rights situation on the ground. However, reports from a 
variety of sources suggest a pattern of serious human rights 
violations, such as those described below.

                               EXECUTIONS

    Amnesty International has received reports of public executions 
carried out at places where large crowds gather. These executions are 
announced in advance to encourage attendance by schools, enterprises, 
and farms. Some prisoners have reportedly been executed in front of 
their families. Executions are carried out by hanging or firing-squad.

                   FREEDOM OF EXPRESSION AND RELIGION

    Opposition of any kind is not tolerated. According to reports, any 
person who expresses an opinion contrary to the position of the ruling 
party faces severe punishment, as does their family in many cases. The 
domestic news media is strictly censored and access to international 
media broadcasts is restricted. Any unauthorized assembly or 
association is regarded as a ``collective disturbance'', liable to 
punishment.
    Religious freedom, although guaranteed by the constitution, is in 
practice sharply curtailed. There are reports of severe repression of 
people involved in public and private religious activities through 
imprisonment, torture and executions. Many Christians are reportedly 
being held in labor camps.

                       TORTURE AND ILL-TREATMENT

    Reports from a variety of sources suggest that torture and ill-
treatment are widespread in prisons and labor camps, as well as in 
detention centers where North Koreans who have been forcibly returned 
from China are held for interrogation pending transfer to other places. 
Conditions in prisons and labor camps are reported to be extremely 
harsh. Inmates are made to work from early morning until late at night 
in farms or factories, and minor infractions of rules can be met with 
severe beatings. According to some reports, however, more deaths are 
caused by lack of food, harsh conditions and lack of medical care than 
by torture or ill-treatment.

                  FREEDOM FROM HUNGER AND MALNUTRITION

    North Korea continues to rely on international aid to feed its 
population, but many people in the country are suffering from hunger 
and malnutrition. According to a study published last year by the Food 
and Agricultural Organization of the United Nations (FAO), 13 million 
people in North Korea--over half of the population--suffered from 
malnutrition. Aid agencies have estimated that up to two million people 
have died since the mid-1990s as a result of acute food shortages 
caused by natural disasters and economic mismanagement. Several million 
children suffer from chronic malnutrition, impairing their physical and 
mental development. Many people in the country also lack adequate 
medical care due to lack of medical personnel and supplies.
    According to a special report by the FAO and the World Food Program 
(WFP) on October 30, 2003, despite improved harvests, North Korea will 
have another substantial food deficit in 2004. A combination of 
``insufficient domestic production, the narrow and inadequate diet of 
much of the population and growing disparities in access to food as the 
purchasing power of many household declines'' has meant that about 6.5 
million North Koreans will require assistance next year.
    The situation remains ``especially precarious'' for young children, 
pregnant and nursing women and elderly people. Malnutrition rates 
remain ``alarmingly high'', as four out of ten young children suffer 
from chronic malnutrition, or stunting, according to a survey conducted 
in October 2002 by the UNICEF and the WFP. According to FAO and the 
WFP, ``Continued, targeted food aid interventions are essential to 
prevent a slippage back towards previous, higher levels of 
malnutrition.''
    An economic policy adjustment process initiated by the North Korean 
government in July 2002 has led to a further decrease in the already 
inadequate purchasing power of many urban households. The new report 
cites government authorities who state that rations from the Public 
Distribution System (PDS)--the primary source of food for 70 percent of 
the population living in urban areas--are set to decline to no more 
than 300 grams per person per day in 2004, from 319 grams this year. 
Although the PDS rations are very low, industrial workers and elderly 
people now spend more than half of their income on these rations alone. 
They are unable to purchase staples such as rice and maize from private 
markets, where prices are as much as 3.5 times higher, let alone more 
nutritious foods.
    Freedom from hunger and malnutrition and the right to food are 
fundamental rights guaranteed in the International Covenant on 
Economic, Social and Cultural Rights (ICESCR), to which North Korea is 
a State Party. The provision of food where humanitarian assistance is 
needed is both a joint and individual responsibility. The expert 
Committee set up to monitor the Covenant has concluded that all State 
Parties, individually and through international cooperation, are under 
an obligation to ensure ``an equitable distribution of world food 
supplies in relation to need''.
    North Korea must ensure that international food aid and other food 
supplies are distributed equitably to all among its population, without 
discrimination. If its population is in need of food supplies that it 
cannot provide, the government must seek outside assistance, and must 
refrain from using food as a negotiating issue.
    Amnesty International wrote to President Bush in July 2003 
commending the Administration's announcement that the US Government 
would refrain from using food as an instrument of political and 
economic pressure and seeking further assurances that this will remain 
US policy. States such as the USA, which are in a position to help the 
North Korean population, must provide the necessary food aid, without 
tying this to particular political goals. The US government responded 
in August, assuring that the policy of the United States is to provide 
emergency food aid based on humanitarian considerations without regard 
to political, military or economic issues; however, there has been a 
decline in food aid to North Korea in recent years. This trend has 
continued despite concerns from the WFP and other humanitarian agencies 
of substantial shortfalls in food aid and serious levels of chronic 
malnutrition among vulnerable sections of the population.
    Should the US, which has been a leading donor of humanitarian food 
aid to North Korea in the past, impose food embargoes or reductions in 
food aid to North Korea, it is the ordinary North Korean people who 
would suffer more. The worsening food shortage would also lead to 
worsening conditions for already vulnerable sectors of the North Korean 
population, such as children, women and elderly people. As a prominent 
aid donor stated, ``Withholding aid would not only be morally wrong, it 
would also not solve any problems. Closing the door now means much 
greater difficulty in reopening the future--and with an open door comes 
the possibility of the same level of communication, or of gradually 
developing an even better level (of communication).'' Food should not 
be used as an instrument of political and economic pressure and must be 
the subject of embargoes.

                  NORTH KOREAN ASYLUM SEEKERS IN CHINA

    In the face of serious food shortages and political repression, 
thousands of North Koreans have fled across the border to China where 
many live in fear of arrest and possible repatriation. The Chinese 
authorities claim that all North Koreans who illegally come to China 
are economic migrants, and have consistently denied them access to any 
refugee determination procedure, in violation of China's obligations 
under the 1951 Refugee Convention and despite evidence that many among 
them have genuine claims to asylum.
    Their desperate plight has been brought into sharp focus by a 
series of diplomatic incidents in which over 100 North Koreans have 
entered foreign diplomatic facilities in several Chinese cities in an 
attempt to claim asylum. China has responded to these incidents by 
stepping up its crackdown on North Koreans, particularly in the 
provinces of Liaoning and Jilin which border North Korea. Hundreds, 
possibly thousands, of North Koreans have been detained and forcibly 
returned across the border where they meet an uncertain fate. Amnesty 
International fears that they could be subjected to serious human 
rights violations as discussed below, including arbitrary detention, 
torture or even summary execution.
    The renewed crackdown in northeast China has also extended to 
people suspected of helping North Koreans, including members of foreign 
aid and religious organizations and ethnic Korean Chinese nationals 
living in the border area, many of whom have been detained for 
interrogation. In December 2001, a South Korean pastor, Chun Ki-won, 
and his assistant, Jin Qilong, an ethnic Korean Chinese national, were 
arrested in Hulunbeier City in China's Inner Mongolia Autonomous Region 
while leading a group of 13 North Koreans through northeast China 
towards the neighboring state of Mongolia. On March 3, 2002, Chun Ki-
won and Jin Qilong were charged with ``organizing other people to 
illegally cross the national border''. They were tried by the 
Hulunbeier Municipal People's Court in Inner Mongolia in July, found 
guilty and sentenced to pay fines of 50,000 and 20,000 Yuan 
respectively (US$6,000/US$2,400). They were subsequently released, and 
Chun Ki-won was deported to South Korea on August 22, 2002.
    The 13 North Koreans were detained in Manzhouli Prison in Inner 
Mongolia. Three of them, including a newly-born baby, were reportedly 
returned to North Korea in late January or early February 2002, but 
there were no further details about their status or whereabouts. The 
others, including four children, were reported to have been moved from 
Manzhouli Prison in July 2002, but their current whereabouts remain 
unknown.
    More recently, five men were arrested on January 18, 2003 in Yantai 
for helping North Koreans, and were sentenced on May 22, 2003. They 
include a South Korean journalist, Seok Jae-hyun, who was sentenced to 
two years and a fine of 5,000 Yuan and another South Korean national, 
Choi Yong-hun, who was sentenced to five years and fined 30,000 Yuan.

                        RETURNED ASYLUM SEEKERS

    Despite the uncertain fate that awaits them, many North Koreans 
continue to cross the border into China. Some have sought asylum in 
diplomatic compounds and foreign schools in China and have been allowed 
to leave, traveling to South Korea via third countries. Hundreds of 
others have been reportedly apprehended in northeast China and forcibly 
returned to North Korea.
    Those forcibly returned are held for interrogation in detention 
centers or police stations operated by North Korean security agencies. 
Depending on who they are and the result of interrogation, they may be 
sent back to detention centers or prisons in their home province, or to 
labor camps for up to six months. A few such returnees, particularly 
former officials or those found with religious literature, are assigned 
long terms of imprisonment with hard labor or in some cases face 
execution. Those sent back to their home province are ostracized within 
their community and subjected to surveillance. Many flee the country 
again. Some have fled and been returned several times, reportedly 
facing increasingly severe punishments with each failed escape attempt.

                           WHAT CAN BE DONE?

    Mr. Chairman, given the closed nature of North Korea and continued 
reports of numerous human rights abuses, it is imperative that the 
international community find the best way to encourage increased 
transparency in the country. We are not aware of any independent 
functioning civil society or non-governmental organizations in North 
Korea.
    The international community should focus on persuading North Korea 
to invite United Nations human rights experts as a first step. 
Transparency in a closed country environment like North Korea, 
especially with respect to its prisons and detention centers, is more 
likely to be achieved in a gradual, step-by-step manner. Because North 
Korea is a member of the United Nations, it may be more inclined to 
allow access to the United Nations than any other organization. 
Countries like South Korea, China, Japan, EU member countries and 
Russia could be helpful allies in this endeavor.

               RECOMMENDATIONS TO THE BUSH ADMINISTRATION

  <bullet> Engage diplomatically with North Korean government 
        authorities;
  <bullet> Initiate confidence-building measures such as continuation 
        of food aid without conditionality and avoid food sanctions;
  <bullet> Urge North Korea to grant unimpeded access to international 
        human rights organizations;
  <bullet> Urge North Korea to allow UN human rights monitors access to 
        prisons and detention facilities;
  <bullet> Urge North Korea to grant unimpeded access to Special 
        Rapporteurs and thematic experts under the United Nations 
        conventions to which North Korea is a state party, such as the 
        International Convention on Civil and Political Rights (ICCPR); 
        International Convention on Economic, Social and Cultural 
        Rights (ICESCR); Convention on the Rights of the Child (CRC); 
        and Convention on the Elimination of all forms of 
        Discrimination against Women (CEDAW);
  <bullet> Urge the North Korean government to implement the 
        recommendations of the Committee on Human Rights and the 
        Committee on the Rights of the Child, which were issued in 
        response to the reports on treaty compliance submitted by North 
        Korea;
  <bullet> Urge the North Korean government to grant access to the 
        Special Rapporteur on Food to make visits to prisons and 
        detention centers where there have been reports of deaths due 
        to malnutrition;
  <bullet> Urge the North Korean government to invite experts from the 
        Committee on the Rights of the Child and thematic experts and 
        rapporteurs under CEDAW, as children and pregnant and nursing 
        women are identified by UN agencies as vulnerable groups badly 
        affected by the food shortages in North Korea. These experts 
        should be granted unimpeded access to prisons or detention 
        centers for juvenile detainees and women detainees;
  <bullet> Urge the North Korean government to grant access to and 
        cooperate without restriction/reservation with thematic 
        procedures of the Commission on Human Rights relevant to the 
        situation of North Korea: the Special Rapporteur on Torture, 
        the Special Rapporteur on Religious Intolerance, the Working 
        Group on Arbitrary Detention, as well as the Working Group on 
        Enforced or Involuntary Disappearances; encourage North Korean 
        government to report regularly to the relevant treaty bodies, 
        ratify more UN Conventions, including the Convention against 
        Torture and other Cruel, Inhuman or Degrading Treatment or 
        Punishment;
  <bullet> Urge North Korea to review existing legislation to ensure it 
        conforms with international human rights standards and 
        introduce safeguards to provide citizens with protections and 
        remedies against human rights violations;
  <bullet> Prohibit the use of slave, forced, or prison labor in any 
        investment in extraction or production enterprises.

               RECOMMENDATIONS TO THE CHINESE GOVERNMENT

  <bullet> Allow the United Nations High Commissioner for Refugees 
        (UNHCR) access to North Korean refugees in China;
  <bullet> Stop repatriating North Korean refugees.

             RECOMMENDATIONS TO THE NORTH KOREAN GOVERNMENT

    Amnesty International has repeatedly called on the North Korean 
government to take measures to increase respect for human rights in the 
country, including to:

  <bullet> Abide by the principles laid out in the international human 
        rights treaties it has ratified--such as the International 
        Covenant on Civil and Political Rights and the International 
        Covenant on Economic, Social and Cultural Rights--and 
        incorporate these principles into domestic law;
  <bullet> Abolish the death penalty;
  <bullet> Release all who are detained or imprisoned for the peaceful 
        exercise of their human rights;
  <bullet> Guarantee freedom of expression, religion, movement for all 
        North Koreans;
  <bullet> Ensure the right to freedom from hunger and malnutrition 
        without discrimination;
  <bullet> Review and revise existing legislation to ensure it conforms 
        with international human rights standards and introduce 
        safeguards to provide citizens with protections and remedies 
        against human rights violations; and
  <bullet> Grant unimpeded access to international human rights 
        organizations and other independent human rights monitors;
  <bullet> Invite the UN human rights mechanisms to visit North Korea, 
        in particular to grant unimpeded access to Special Rapporteurs 
        and thematic experts under the United Nations conventions to 
        which North Korea is a state party, such as the International 
        Convention on Civil and Political Rights (ICCPR), International 
        Convention on Economic, Social and Cultural Rights (ICESCR), 
        Convention on the Rights of the Child (CRC), and Convention on 
        the Elimination of all forms of Discrimination against Women 
        (CEDAW);
  <bullet> Implement the recommendations of the Committee on Human 
        Rights and the Committee on the Rights of the Child, which were 
        issued in response to North Korea's treaty compliance report;
  <bullet> Invite the Special Rapporteur on Food to visit prisons and 
        detention centers where there have been reports of deaths due 
        to malnutrition;
  <bullet> Invite experts from the Committee on the Rights of the Child 
        and thematic experts and rapporteurs under CEDAW, to examine 
        conditions generally and also focus on children and pregnant 
        and nursing women who have been identified by UN agencies as 
        vulnerable groups badly affected by the food shortages. In 
        addition, provide these experts with unimpeded access to 
        prisons or detention centers for juvenile detainees and women 
        detainees;
  <bullet> Grant access to and cooperate without restriction or 
        reservation with the thematic procedures of the Commission on 
        Human Rights, such as the Special Rapporteur on Torture, the 
        Special Rapporteur on Religious Intolerance, the Working Group 
        on Arbitrary Detention, as well as the Working Group on 
        Enforced or Involuntary Disappearances;
  <bullet> Submit reports regularly to the relevant UN treaty bodies of 
        experts and ratify additional human rights related UN 
        conventions, including the Convention against Torture and other 
        Cruel, Inhuman or Degrading Treatment or Punishment.

    Thank you.

    Senator Brownback. Thank you very much, Mr. Kumar.
    Mr. Charny. Tell me if I'm getting that--pronounce it for 
me.
    Mr. Charny. Charny.
    Senator Brownback. Charny, excuse me. Thank you very much 
for being here with us today.

    STATEMENT OF JOEL R. CHARNY, VICE PRESIDENT FOR POLICY, 
             REFUGEES INTERNATIONAL, WASHINGTON, DC

    Mr. Charny. Thank you. And, Senator Brownback, I'd 
especially like to thank you for organizing this hearing on 
humanitarian and human-rights issues related to North Korea, 
and for your overall commitment to human rights in that 
country.
    We believe precisely that focus on the nuclear issue, as 
critical as that issue is to the security of the United States 
and East Asia, has deflected attention from the terrible 
humanitarian situation of the North Korean people. And RI 
appreciates the consistent efforts of the members of this 
committee to bring attention to the humanitarian and human-
rights aspects of the North Korea problem.
    I will present a very brief summary of our findings and 
recommendations, while requesting that my full written 
testimony be entered into the record.
    Senator Brownback. Without objection.
    Mr. Charny. My testimony is based on a visit to one 
province in China, in June of this year, interviewing 38 North 
Korean refugees, ranging in age from 13 to 51. And like Ms. 
Rios, I had similar experiences in just the emotional content 
of the testimony that we are hearing, people speaking very 
matter-of-fact about the death of relatives, about the 
starvation and suffering that they had faced in North Korea, 
about arrest and deportation in China, return to North Korea, 
and facing difficult conditions again. And it was a one-week 
trip. We only spoke to 38 people, but I think it was one of the 
most intense experiences I've ever been through as an advocate 
for Refugees International.
    My analogy is to Cambodia, under the Khmer Rouge, a 
situation that I'm familiar with from long work on Cambodia.
    I don't think any other country in the world, with the 
possible exception of Pol Pot's Cambodia, has created such a 
controlled society where there's just--there's no air, there's 
no space, there's truly no freedom for people to act and to be 
human beings.
    Our first interview was with a man who had crossed 3 days 
before, and we asked him what his reaction was to China. And he 
hesitated for a moment, and then he just broke into tears, and 
he had to leave the room, and when he returned, he basically 
said, you just have to understand how shocking it is ``to see 
the freedom in China''--freedom in China, put that in 
perspective--the ``immense wealth''--again, put that in 
perspective--that the North Koreans find in China just 
completely shatters their world.
    Now, to summarize our findings, credible local sources that 
monitor the border place the number of North Koreans in China 
between 60,000 and 100,000. Now, I know that estimate is low, 
but I have full confidence in this NGO and the networks that 
they're a part of. They monitor the border very closely, and I 
think we need to start using maybe more realistic estimates for 
the numbers of North Koreans in China today.
    The primary motivation of North Korean refugees to cross 
the border is to ensure their survival, and I think I want to 
insist on that terminology. ``Economic reasons'' somehow imply 
that, they're crossing China to become businessmen or, to seek 
employment in a factory. Fundamentally, it's about survival.
    There's a great deal of movement back and forth across the 
border, movement which is tolerated by the North Korean and 
Chinese border guards when they believe it really is for 
survival reasons.
    Fifty percent of the refugees that I interviewed had been 
arrested and deported at least once. The treatment of the 
refugees upon being deported was consistent--2 months of 
captivity in a labor training center, where they endure harsh 
labor and starvation rations, as David Hawk details in his 
report. This treatment, coupled with the political manipulation 
of food rations and employment opportunities inside North 
Korea, constitutes the case for considering the North Koreans 
in China deserving of refugee status. They should not be 
considered economic migrants. That's clear.
    Trafficking of women is a serious problem, but based on my 
1 week in China, it's impossible to give a precise estimate of 
its scope. Korean women do cross with the deliberate intention 
of marrying Korean Chinese men as a survival strategy, and I 
think we need to recognize that.
    The problem is that they're exceedingly vulnerable to being 
captured and sold to Chinese husbands or to bar and brothel 
owners well outside the border region. But we only interviewed 
one woman, who had, indeed, been sent from Jilin to southern 
China, who had managed to escape and to return to that area. 
So, again, in a short period of time, it's just impossible to 
estimate the number of women who might be trapped in 
trafficking networks.
    Now, I want to mention the following strategies for 
protection and recommendations as to how to deal with the North 
Korean situation in China.
    First, the border with China is the lifeline for North 
Koreans, and therein lies the dilemma. Providing real 
protection while avoiding counterproductive provocations of the 
Chinese Government is a very difficult challenge. We 
recommend--it's obvious, David Hawk said the same--that China 
stop arresting and deporting law-abiding North Korean refugees. 
Now, Senator, as you well know, China has signed the 1951 
convention and 1967 protocol related to the status of refugees, 
and in this context, to add insult to injury, is a member of 
the UNHCR Executive Committee, yet still they will not allow 
the Office of the U.N. High Commissioner for Refugees access to 
the border region. And I tend to agree with UNHCR here that 
it's not about the agreement between the Government of China 
and UNHCR, which is just a technical agreement relating to 
their representation in Beijing. What's fundamental is that 
China's a signatory to the Refugee Convention and, further, is 
a member of the UNHCR Executive Committee. The United States 
has got to work that issue in the UNHCR Executive Committee.
    Senator Brownback. Let me stop you just there, if I could, 
Mr. Charny. How can we do that more effectively?
    Because I just think this is ridiculous, that they would be 
on the Executive Committee. They've got one of the worst human-
rights abuse situations right on their border.
    Everybody outside of the area is documenting this. We have 
photos of this. How do we get the Chinese to act?
    Mr. Charny. Well, as you well know, getting China to move 
on any human-rights issue is not easy. We've spoken to a high 
official in the Bureau of Population Refugees and Migration and 
also people in Democracy, Human Rights, and Labor, and they do 
assure us, these officials assure us, that this situation is on 
the agenda in the bilateral dialog between the United States 
and China on human-rights issues.
    My hesitation or my doubt is whether this is really rising 
to the level that it should. In other words, let's get this up 
higher on the agenda in our discussions with the Chinese. And 
then I think the Executive Committee of UNHCR meets 
periodically. There is an opportunity for the United States to 
either make private contact with the Chinese in the context of 
the Executive Committee--that probably wouldn't work. At some 
point, I think we need to go public. UNHCR is saying, ``there's 
little we can do without real political support.'' And the 
United States is a global leader on human-rights issues. We 
give more money to UNHCR probably than any government in the 
world. I think we have leverage and an opportunity to raise 
this publicly within the framework of the UNHCR Executive 
Committee. So it's about a more public posture on this issue, 
recognizing that China often reacts negatively to public 
pressure. But, again, the very idea that they're on the 
Executive Committee, I think, gives us the opening to work this 
issue in a public forum.
    That's my reaction. It's not an easy issue to deal with, I 
admit.
    Now, resettlement is a possible protection strategy, but, 
again, we're stuck with the Chinese being the easiest country 
of first asylum, and they would have to be convinced to make 
resettlement a legal process. The problem with resettlement 
right now is, it's a clandestine process that involves either 
embassy seizures or the underground railroad to South Korea or, 
as David Hawk alluded to earlier, an underground railroad that 
takes North Koreans on an unimaginable journey through southern 
China, into Vietnam, across Cambodia, sometimes down through 
Laos to Thailand. I can't imagine making that journey as a 
North Korean refugee.
    Again, part of our effort with China should be to get them 
to agree to grant access--and we could limit the numbers at the 
outset--but we need access to North Koreans so that we can 
resettle North Koreans legally, openly, transparently. You 
know, the underground railroad is amazing, but the numbers are 
too small. It doesn't really make enough of a difference at 
this stage.
    Now, the South Korean reluctance was something I knew 
little about until I went to Seoul in June, and, frankly, I was 
surprised at the limited numbers of North Koreans that are 
accepted in South Korea for resettlement and the evident 
ambivalence of the South Koreans about taking more. Again, can 
we work this issue with the South Koreans to get them to raise 
their numbers from a thousand, which I think is minimal, up to 
more like 2,000, 3,000, or 5,000 a year, numbers I think would 
be reasonable under the circumstances.
    Now, the United States has previous experience in 
resettling isolated and difficult-to-assimilate populations, 
such as the Hmong, from Laos. So I think we could bring that 
experience to bear, accept North Koreans for resettlement, and 
also provide technical training and support to South Korean 
Government agencies and NGOs involved in resettlement.
    And then, finally, I've referred to the underground 
railway. I think American Embassy staff in Southeast Asian 
countries should obviously be on the lookout for North Korea 
asylum-seekers, and be prepared to consider them for possible 
resettlement in the United States.
    Thank you.
    [The prepared statement of Mr. Charny follows:]

   Prepared Statement of Joel R. Charny, Vice President for Policy, 
                 Refugees International, Washington, DC

    I would like to thank Senator Richard G. Lugar, Chairman of the 
Senate Committee on Foreign Relations, and Senator Sam Brownback, 
Chairman of the East Asia Subcommittee, for organizing this hearing on 
humanitarian and human rights issues related to North Korea and for 
inviting me to testify on behalf of Refugees International. RI believes 
that the focus on the nuclear issue, as critical as that issue is to 
the security of the United States and East Asia, has deflected 
attention from the terrible humanitarian situation of the North Korean 
people. RI appreciates the consistent efforts of the members of this 
Committee to bring attention to the humanitarian and human rights 
aspects of the North Korea problem.
    In June I spent one week with a colleague in Jilin province in 
China interviewing North Korean refugees. They live a precarious and 
clandestine existence as illegal migrants in Jilin, which is the home 
of some one million Chinese of Korean ethnicity. Through contacts with 
networks of non-governmental organizations, largely affiliated with 
local pastors supported by donations from Christian communities in 
South Korea and the United States, the RI team conducted interviews of 
38 North Koreans, ranging in age from 13 to 51. This experience, as 
limited as it was, constitutes, to our knowledge, the most extensive 
interviewing of North Korean refugees in China by an American 
organization in 2003.
    The estimates of the number of North Koreans in China vary widely--
from under 100,000 to as high as 300,000. The organizations that hosted 
the RI visit monitor border crossings on a daily basis and through 
their service programs keep a close eye on the total number of North 
Koreans needing support at any given time. They incline towards the 
lower estimate, and having seen first hand the care with which they 
approach the question of numbers, RI accepts their estimate of 60-
100,000 North Koreans presently in northeast China.
    The primary motivation of the North Koreans crossing into China is 
either to find a better life in China or to access food and other basic 
supplies to bring back to their families in North Korea. Among the 38 
people that RI interviewed, no one had experienced direct persecution 
for her or his political beliefs or religious affiliation prior to 
crossing the border for the first time. The Chinese government argues, 
therefore, that the Koreans are economic migrants rather than refugees, 
and should be treated the same way that the U.S. treats illegal 
migrants from Mexico or Haiti.
    From a refugee rights perspective, China's reasoning is flawed. The 
fundamental problem is that North Koreans are subject to special 
persecution upon being deported from China, with the minimum period of 
detention in ``labor training centers,'' which are tantamount to 
prisons, being two months. Second, everyone in North Korea is divided 
into political classes, with less privileged people, who constitute the 
majority with suspect revolutionary credentials, receiving lower 
rations and less access to full employment. The deprivation that North 
Koreans are fleeing cannot be isolated from the system of political 
oppression that epitomizes the North Korean regime. These factors taken 
together give North Koreans a strong case for being considered refugees 
in their country of first asylum.

        THE CURRENT SITUATION FOR NORTH KOREAN REFUGEES IN CHINA

    The experience of conducting 38 interviews of North Korean refugees 
over the space of a week was harrowing. While the demeanor of the 
refugees ranged from a matter-of-fact passivity to emotional fragility 
to defiance, the stories that they told were consistent in their grim 
portrayal of life in North Korea and the losses that they had suffered, 
especially during the famine period, but in some cases more recently. 
Most of the refugees that RI interviewed were originally from areas in 
the far north and east of the country, regions that had been denied 
international food aid during the famine as described in USAID 
Administrator Andrew Natsios' book, The Great North Korea Famine. 
Approximately half of the refugees had lost at least one relative to 
starvation or disease and an equal portion had been arrested in China 
and deported at least once. The following account illustrates what 
North Korean refugees go through:

          We first came to China in 1997. We have been arrested and 
        deported a total of three times. In April 2002 my husband, my 
        son, and I were arrested. My daughter happened to be out at the 
        time. We were taken to the border crossing point at Tumen and 
        handed to the North Korean security guards. We first went to 
        the county labor training center, then to the local one in our 
        home town. We worked on construction and road building 
        projects, and were provided only with bad corn and corn 
        porridge for food.
          In June 2002 my husband and I returned to China. My son was 
        delivered to the border by another person. We returned to where 
        we were staying in China and found our daughter.
          We were arrested again in September 2002. This time it was 
        the whole family. In October my daughter and I returned to 
        China, but my husband and son stayed in North Korea. In 
        February they tried to come, but they were arrested in North 
        Korea. My son was sent to an orphanage this time, and my 
        husband to a labor training center. He got sick there, was 
        released, and died three days after his release. My son tried 
        three times to escape from the orphanage and return to China, 
        but each time he was caught and returned. Finally, he was able 
        to escape and re-join us in China in March.
          In April my daughter and I were arrested again and deported. 
        On this return I learned that my husband had died. My son had 
        not known. We were again put in the local labor training 
        center. I wanted to see the grave of my husband, so the guards 
        allowed me and my daughter to leave. We then escaped again and 
        returned to China.

    The testimony of recent arrivals, nine of whom had come to China 
this year and three of whom had crossed into China within a week of our 
meeting, belied the reports that the North Korean economy has been 
improving in response to the limited economic reforms initiated in July 
2002. In separate interviews, the recent arrivals, who were largely 
from North Hamyung, reputedly one of the poorest provinces in North 
Korea, consistently stated that the public distribution system, which 
prior to 1994 assured the availability of basic food for the 
population, had completely collapsed. The economic reform program has 
resulted in rampant inflation. The price of rice and other basic 
commodities has skyrocketed, while wages--for coal miners, for 
example--have not kept pace. Children receive no food distributions at 
school, and many schools have stopped functioning while teachers and 
students search for means to survive.
    What is especially shattering for North Koreans is the contrast 
between their life of misery and the life lived by Chinese of Korean 
ethnicity across the narrow border. The Tumen River, which marks the 
northernmost part of the border between North Korea and China, is no 
wider than 100 yards and shallow enough to walk across in certain spots 
in summer. Yet it marks an Amazonian divide in living standards and 
economic freedom. When RI asked a 35-year-old North Korean man who had 
arrived in China just three days earlier his initial impression of 
China, his eyes welled up. He bowed his head and he began sobbing. The 
stunning contrast between his life of fear and deprivation in North 
Korea and the relative wealth he found on the other bank of the Tumen 
River was shattering. Even refugees who had been in China longer could 
not help expressing their gratitude and amazement that in China they 
ate rice three times a day.
    The constant threat of arrest and deportation, however, means that 
China is far from a paradise for North Koreans. Men have a difficult 
time finding sanctuary in China because staying at home is not an 
option and moving around Yanji city or rural areas to find day labor 
exposes them to police searches. The few long-staying male refugees who 
RI interviewed were established in a safe house deep in the countryside 
with access to agricultural plots in the surrounding forest. Otherwise, 
men tend to cross the border, hook up quickly with the refugee support 
organizations, access food and other supplies, and then return to their 
homes in North Korea. RI's impression based on very limited data is 
that this back and forth movement, when the motivation is clearly to 
obtain emergency rations, is tolerated by the North Korean and Chinese 
border guards.
    One protection strategy available to women is trying to find a 
Korean-Chinese husband. The problem is that these women are vulnerable 
to unscrupulous traffickers who pose as honest brokers for Chinese men. 
RI was unable to define the scope of this problem, but anecdotal 
evidence suggests that the trafficking of North Korean women is 
widespread. Women, some of whom have a husband and children in North 
Korea, willingly offer themselves to gangs along the border who sell 
them to Chinese men. These women see this as their only option for 
survival. RI interviewed several women who, knowing that they were 
going to be sold, escaped from the traffickers once in China. Other 
North Korean women are successful in finding a Korean-Chinese husband 
and achieve a measure of stability in their lives. Probably the two 
happiest refugees that we spoke to during our week in China were two 
women who were part of stable marriages. These women, however, like all 
North Koreans, are unable to obtain legal residency in China. If the 
couple has children born in China, the children are stateless. North 
Korean children in China are not able to get a formal education.
    The accounts of the treatment of refugees upon arrest and 
deportation were remarkably consistent across the range of individuals 
that RI interviewed. Refugees arrested in Yanji and surrounding areas 
in Yangbian were handed to the North Korean authorities at the border 
crossing point at Tumen. They were then transported to ``labor training 
centers'' in their village or town of origin in North Korea. The length 
of detention in these centers was consistently two months. Conditions 
in the centers were terrible. The deported refugees experienced hard 
labor on construction projects or in the fields, with very limited 
rations. A thin porridge made from the remnants of milled corn was the 
most common food. Medical care was completely unavailable. Indeed, RI 
was struck by several accounts indicating that severely ill detainees 
were released rather than cared for, presumably so they would die 
outside the center, freeing the guards from any responsibility for 
burial.
    The North Koreans consider meeting with foreigners, especially with 
South Koreans to arrange emigration to South Korea, and adopting 
Christianity with the intention of propagating the faith inside North 
Korea to be serious crimes. According to several refugees, the 
punishment for deported refugees suspected of either act is life 
imprisonment in a maximum security prison camp or execution. For 
obvious reasons, RI was not able to interview anyone who had been 
arrested for these ``crimes.''

            STRATEGIES FOR PROTECTING NORTH KOREAN REFUGEES

    Refugees International recognizes that horrendous oppression and 
economic mismanagement inside North Korea are responsible for the flow 
of people seeking assistance and protection in China and elsewhere in 
Asia. In this sense, only fundamental change inside North Korea will 
staunch the flow of refugees and bring freedom and economic security to 
the North Korean population. Analyzing ways to bring about the 
necessary changes with the least possible suffering, however, lies 
outside the scope of RI's expertise. I will therefore limit my remarks 
to near-term protection strategies in the context of the current 
political situation.
    The border with China is the lifeline for North Koreans in 
desperate condition, and therein lies the dilemma for those seeking to 
provide sustenance and protection for them. Any strategy for protecting 
North Korean refugees must be carried out in such a way that the 
approach does not result in steps that restrict access to supplies and 
security, or that lead to further arrests and crackdowns. Providing 
real protection while avoiding counterproductive provocations of the 
Chinese government is a difficult challenge.
    Despite this challenge, and the proven difficulties of changing the 
approach of the People's Republic of China on any human right issue, 
Refugees International believes that a practical, near-term protection 
strategy must first and foremost seek to establish greater security for 
North Koreans in Jilin province in China. The refugees that RI 
interviewed either expressed an intention to return to their families 
in North Korea after recuperating and obtaining basic supplies or to 
stay and try to make their way in China. The Chinese government has 
designated Yangbian as a Korean autonomous region; in consequence 
government officials are of Korean ethnicity and Korean is the official 
language of government affairs and commerce, along with Mandarin. Thus, 
North Korean refugees have cultural and linguistic affinity with 
Chinese in this region. Local officials try to avoid harassing the 
refugees and the periodic waves of arrests and deportations, according 
to local sources, are the consequence of orders from the national 
authorities in Beijing. The economy in the border area is vibrant, due 
in part to South Korean investment, but living in the regional capital, 
Yanji, or in smaller towns does not pose the immense problems of 
cultural adaptation that North Koreans have faced in the South.
    RI believes that the first step towards providing protection for 
North Korean refugees in China is for the Chinese government to stop 
arresting and deporting law abiding North Koreans who have found a home 
across the border. Given the factors favoring assimilation, and the 
healthy economy in Yangbian, this step should pose no immediate 
security or other threat to China. The UN High Commissioner for 
Refugees, Ruud Lubbers, claimed in June that Chinese officials had 
informed him that they would stop arresting and deporting North 
Koreans. China immediately denied any change in policy. But quiet 
implementation of this approach would provide greater security to North 
Koreans while keeping the border open to the back and forth movement of 
people and goods that is a lifeline for poor people in the border 
provinces of North Korea. Given the available options, this best 
combines care for North Korean refugees with respect for the legitimate 
political and economic security needs of the Chinese government.
    Merely stopping the arrest and deportation of North Koreans, 
however, falls well short of China's obligations under the 1951 
Convention and 1967 Protocol Related to the Status of Refugees, to 
which it is a signatory. Further, China is on the Executive Committee 
of the Office of the UN High Commissioner for Refugees (UNHCR). Yet 
China not only refuses to grant refugee status to worthy North Korean 
asylum seekers, but prevents the Beijing-based staff of UNHCR from 
traveling to Yangbian to assess the situation.
    RI has called for UNHCR to engage proactively with the Chinese 
government to seek permission to visit Yangbian and eventually to 
establish an office in the region to monitor the status of North 
Koreans in China and to provide protection and assistance as needed. 
UNHCR's profile on this issue has been too low, considering the numbers 
of North Koreans in China and China's importance to UNHCR and the 
international community.
    At the same time, RI recognizes that UNHCR's real leverage with the 
Chinese government on this issue is minimal. Only wider political 
support and engagement, especially at the level of the UNHCR Executive 
Committee and bilateral discussions between China and interested 
governments, will lead to meaningful change in the Chinese position.
    RI urges the United States government to make the status of North 
Korean refugees in China a priority issue in its on-going human rights 
dialogue with the Chinese government. We have raised this issue 
directly with officials of the State Department Bureaus of Population, 
Refugees, and Migration and Democracy, Human Rights, and Labor; they 
have assured us that this issue is indeed an important part of 
bilateral discussions with the Chinese. While RI accepts these 
assurances, we hope that the members of the Senate Committee on Foreign 
Relations and other members of the Senate will continue to impress upon 
the Administration the importance of Chinese action to facilitate 
UNHCR's access to North Korean refugees.
    A second possible approach to protecting North Korean refugees is 
third country resettlement. Resettlement faces equally determined 
opposition from China. The Chinese authorities have actively tried to 
prevent North Koreans from reaching the embassies of potential 
resettlement countries and refuse to allow diplomatic missions to 
establish facilities to assess eligibility for resettlement in Yangbian 
itself. What little resettlement there has been has resulted from high-
level defectors and other individuals reaching South Korea by boat or 
via underground railroad from China and the storming of embassy 
compounds in Beijing. The numbers are small. South Korea accepted fewer 
than 1,000 North Koreans for resettlement in 2002 even though their 
right to settle in the South is recognized in national law.
    For resettlement to be a meaningful protection strategy, both China 
and South Korea will have to change their policies. China will have to 
allow potential resettlement countries open and unrestricted access to 
North Korean refugees. This step would be a logical follow on to a 
decision to allow UNHCR access to Yangbian, but neither action appears 
politically feasible at this point. As for South Korea, its low 
admission numbers reflect more than the difficulty of North Koreans 
reaching South Korea. As I learned on a visit to Seoul in June, South 
Korean citizens and the South Korean government have a remarkable 
ambivalence about the suffering of North Koreans. Citizens fear 
economic turmoil if North Koreans are admitted in large numbers, while 
their solidarity is limited by disdain for the poverty and lack of 
sophistication of North Koreans. As for the government, commitment to 
the Sunshine Policy and reconciliation more broadly locates the 
fundamental solution of humanitarian issues in gradual political change 
in North Korea that will result from engagement, rather than in large-
scale acceptance of refugees, an act that would anger the leaders of 
the North Korean government. The result is a marked lack of commitment 
by South Korea to offer resettlement to North Koreans.
    RI believes that in the near term resettlement is unlikely to be an 
option for more than a few thousand North Koreans. The U.S. role should 
be to engage with China to see if resettlement, at least on a modest 
scale, can become a legal option for North Koreans in China. The 
Administration should also be talking to the South Koreans about 
increasing their economic and political commitment to resettlement. The 
U.S. itself could be a resettlement destination. The U.S. experience 
with resettling previously isolated and difficult to assimilate 
populations, such as the Hmong from Laos, might be usefully applied to 
North Koreans, both by accepting them here and by providing technical 
training and support to South Korean government agencies and NGOs 
involved in resettlement. Finally, North Koreans, through the 
underground railway, have managed to reach countries as far away as 
Thailand and Cambodia. American embassy staff in Southeast Asian 
countries should be on the lookout for North Korean asylum seekers and 
be prepared to consider them for possible resettlement in U.S.

    Senator Brownback. Thank you all very much.
    I regret to say we've got a vote that is on now, and so I'm 
going to have to proceed from here.
    Let me say this, if I can, to each of you and to the panel 
before, I think this has been very illuminating. I'm regretful 
that it's taken this long to gather this much information. If I 
could, Mr. Hawk, from your testimony, that it strikes me this 
has been going on for some period of time and we're just now 
getting this little window on a very nasty place in the world. 
And it's just now come to the forefront.
    Ms. Rios, let me thank you for what you're doing on this. 
Your grassroots movement has had a number of very successful 
efforts in trafficking in persons, dealing with that, and the 
Sudan, which we're hopeful getting close to a peace agreement 
near-term, Religious Freedom Act. I hope this is four in a row 
for you, that this one moves on forward, because this is 
clearly one of the worst situations we see in the world today, 
and ranks up there in the top category, historically, or at 
least over the last century.
    Mr. Kumar, I appreciate your thoughts about the food aid. 
That is a wrestling issue that we're struggling with now, 
because a number of people assert that by giving food aid, it's 
being redirected toward the elite and the military and you're 
propping up the regime with food aid, even though the numbers 
I've seen, somewhere around a third of the North Korean 
population is being fed by international food donations, and 
perhaps even higher than that currently. So, obviously, it's--
and we know that this is a very vulnerable population and 
nobody wants to hurt the people, but we also don't want to prop 
up a regime.
    And Mr. Charny, I thought your points were excellent.
    I, myself, have been to that region of the Chinese/North 
Korean border, just about a year ago. I wasn't as fortunate to 
interview people. They pretty well cleaned the place up, I 
guess, as you would say, before I got there, and everybody was 
told, ``don't say anything.'' But the people I've interviewed 
that have come through the region pretty much correspond to 
what you've said, other than--I've heard a number of stories of 
people that if they've come out of North Korea into China and 
then taken back and found to have had contact with the 
underground railroad or religious people, that the detention 
can be much more severe, if not terminal, for them. Now, if 
it's a situation that you're basically trying to forage for 
food, that they're treated in a lighter fashion.
    Mr. Charny. Can I just say, that's in my written testimony. 
But for obvious reasons, we weren't seeing people who had been 
either forced to admit or had been discovered being in contact 
with South Koreans or having converted to Christianity and 
agreeing to go back and proselytize. So our experience was 
limited to people who were fundamentally coming into China to 
survive, rather than ones who had been detained for these 
crimes, so-called, that are much more serious in nature from 
the North Korean standpoint.
    Senator Brownback. The trafficking issue, the trafficking 
in persons report, addresses some of that, as well, of women 
being trafficked out and, in essence, sold to groups of men to 
take care of homes, and sexually deal with the men as well, in 
the trafficking report.
    So we're getting a lot of information from a number of 
different sources, all pointing to a cataclysmic human-rights 
situation in North Korea, and I think it's just absolutely 
imperative that we have this as part of the negotiations if 
we're going to negotiate with North Korea, and that the Chinese 
have to wake up to their responsibility in this area, that 
they've got to start to address this situation for the terrible 
situation that it is, or to start paying some sort of price, 
internationally, for continuing to ignore one of the worst 
human-rights abuses, if not the worst in the world today.
    Thank you all very much for your work. I really do 
appreciate it, that of you and your organizations. Godspeed.
    The hearing is adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Statements Submitted for the Record


    Statement Submitted by Citizen's Coalition for Human Rights of 
                  Abductees and North Korean Refugees

                            October 30, 2003

               VIDEO STRIPS OF A NORTH KOREAN LABOR CAMP

    We have photographic evidences of crimes committed against 
prisoners in a North Korean prison, including those forcibly 
repatriated defectors from China.
    Ill-treatment of inmates in North Korean prison system has been 
common knowledge in the international community, yet there has been no 
solid evidence. Through underground contacts we obtained short video 
strips of North Korean Defector Labor Camps in Onsong district, North 
HamKyung Province. They were photographed in mid-August, 2003 and 
depict punishment of forcibly repatriated defectors from China, 
justifying refugee status for most of the current North Korean 
defectors in China, Russia, and south east Asian countries.
    Normally, when North Korean defectors are apprehended in China, 
they are forcibly repatriated and are sent to work camps where they are 
forced into hard labor and subject to brutal torture. Until now, the 
international community has heard these stories while North Korean and 
Chinese authorities denied these accounts as fictitious or distorted 
stories.
    By exposing these facts to the United States and to international 
society, we three South Korean NGOs urge all available means and 
resources be utilized in stopping the barbarous acts of the KIM, Jong-
Il regime and the mechanisms of systematic oppression in North Korea be 
immediately dismantled. At the same time, we believe this is an 
opportune time to encourage Chinese authorities to officially recognize 
North Korean defectors as legitimate refugees as defined by 
international law.

Citizen's Coalition for the Human Rights of N.K Abductees and Refugees

Movement for the Dismantling of Camps for North Korean Political 
        Prisoners

North Korean Network for Democratization

    ``The North Korea Freedom Coalition'', where Citizen's Coalition 
for the Human Rights of N.K Abductees and Refugees is a member 
organization, is a bipartisan coalition of religious, human rights, 
non-governmental and Korean-American organizations, whose prime purpose 
is to bring freedom to the North Korean people and to ensure that the 
human rights component of U.S. and world policy towards North Korea 
receives priority attention.

                                 ______
                                 

  Citizen's Coalition for Human Rights of Abductees and North Korean 
                                Refugees

                            November 3, 2003

          PLEASE HELP TWO ARRESTED NORTH KOREAN WOMEN IN CHINA

    Two North Korean women, Choi Sun-hwa, 56, and Song Jong-hwa, 23, 
mother and daughter, were among the unknown number of North Korean 
refugees who were arrested at the China/Vietnam border on 18 August 
2003. There is no doubt that the above women will face severe 
punishment, if not execution, because they are former landlord's 
family, enemy of people. Attached is a testimony about their 
background. Please do not disclose the testimony at this stage. It was 
confirmed that they are still in China at the border prison of Tumen. 
Hopefully, the fact that they are still in China might be an indication 
of special consideration by the Chinese authorities. It is sincerely 
hoped that a little more push now will lead to their release as in the 
case of 7 North Korean defectors who were arrested in Shanghai with a 
Japanese aid worker some months ago and reportedly released later.
    I would be very grateful if you and other supporters could urgently 
raise the issue with the Chinese authorities on their behalf. Your help 
for these two particular refugees would also apply to the other 
refugees in the same prison. Please help us! We believe your 
intervention works.

    Many thanks as ever and kind regards,
                                               Sang Hun Kim

    PS: the attached testimony has a very brief reference to the death 
of an underground North Korean Christian. Will work hard to obtain 
further information and evidence, if possible, as soon as the other 
refugees from the same town are identified, both in China and Korea.

    The following testimony was obtained in Seoul by an international 
human rights volunteer on 21 October, 2003.

            Alas! Have I Sent my Mother and Sister to Hell?

    I am 28 years old (DOB: October, 1975). My name is Song Nip-sam, an 
alias. I was born in the Saetpyeol district of North Korea, one of the 
towns bordering China. My grandfather was a landlord and my father was 
socially discriminated for that reason. He had been a worker for life 
when he died from a stroke in 1996. I had a brother and two sisters. I 
joined the army in 1993 after I graduated from my hometown high school. 
I was so undernourished that I was discharged from the military service 
in 1994 after only a year of military service. I stayed home for about 
a year helping my mother with household affairs. I grew disillusioned 
and angry with the North Korean regime as we were socially 
discriminated against because of my family record.
    I defected to China to seek freedom on 16 January 1997. On 6 
December of the same year, I was grabbed by North Korean border guards 
on 6 December of the same year while attempting to return to North 
Korea to see my family. I was detained and interrogated by the State 
Security Agency (SSA) for a little over a month, after which I was 
cleared of all political offenses and released on 28 January 1998. 
During this time, however, I was kicked and beaten frequently. In the 
same cell of the SSA, I found a farmer by the name of Tokhung, a well-
known figure in Hamyon of my home district, who was arrested 3 days 
before me. He earlier defected to China, sneaked into North Korea and 
was arrested while attempting to escape from China with his wife. He 
was severely beaten and badly tortured. He was still in the jail when I 
was released. About two months later after my release, every one in the 
town believed that he had been sent to a concentration camp and killed 
there, like the case of Mr. Kim Shi-wun, a factory inventory clerk and 
my fathers friend, about 50 at that time, was beaten to death by SSA 
for his record of defection to China in 1995. (I heard in China from 
somebody from my hometown that a woman oral hygiene doctor in my 
hometown was arrested for being a Christian by the Saepyeol District 
SSA sometime in 2000. She killed herself in jail by bumping her head 
hard against wall to refuse to tell other Christians' names under 
torture.)
    My life in North Korea after my release was continuously under 
surveillance, and I was disappointed and angry with the North Korean 
regime and felt hopeless for my future. I defected to China for the 
second time on 10 March 1999, and finally managed to arrive alone in 
South Korea on 23 March 2001 via Mongolia. However, my happiness with 
freedom in South Korea was short-lived with thoughts of my mother and 
sister still in North Korea.
    I managed to bring my mother, Choi Sun-hwa, 56, and sister, Song 
Jong-hwa, 23, to China on 12 June 2003. Alas, they were arrested by the 
Chinese authorities on 18 August while attempting to cross the Chinese 
border to Vietnam! I have no information about the circumstances under 
which they were arrested. There is no doubt that my mother and sister 
faced extremely harsh persecutions and punishment because of my 
grandfather's status. I am in such a state of agony that I would rather 
kill myself. The many sleepless nights I have now been through and the 
disappointment in not being able to turn to anyone for help makes me 
mad day and night and deprives me of laughter or any pleasure in life. 
I bitterly blame myself that I have sent them to hell! On this 22nd day 
of October 2003, I was able to confirm that they are still in a border 
prison in Tumen, China, which is surprising considering the usual 
speedy rate of repatriation to North Korea. Is it an indication of a 
change in the Chinese policy? Are my mother and sister going to be 
spared? May God help us.


</pre></body></html>
